<html>
<title> - GULF COAST RECOVERY: FACING CHALLENGES AND COMING BACK STRONGER IN EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  GULF COAST RECOVERY: FACING CHALLENGES AND COMING BACK STRONGER IN 
                               EDUCATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION
                               __________

                             April 26, 2006

                               __________

                           Serial No. 109-35

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 _____



                 U.S. GOVERNMENT PRINTING OFFICE

27-979 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 26, 2006...................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Minority Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Douglas Chance, Ph.D., Superintendent, Cameron Parish Public 
      Schools....................................................    29
        Prepared statement of....................................    31
    Scott S. Cowen, Ph.D., President, Tulane University..........    11
        Prepared statement of....................................    13
        Additional material supplied.............................    66
    Marvalene Hughes, Ph.D., President, Dillard University.......    17
        Prepared statement of....................................    19
    Fr. William Maestri, Superintendent of the Office of Catholic 
      Schools, Archdiocese of New Orleans........................    22
        Prepared statement of....................................    23
    Jim Nelson, Superintendent, Richardson Independent School 
      District...................................................    25
        Prepared statement of....................................    27
    Doris Voitier, Superintendent, St. Bernard Parish Public 
      Schools....................................................    33
        Prepared statement of....................................    36

Additional Materials Supplied:
    Prepared Statement of the American Occupational Therapy 
      Association................................................    63
    Internet URL to Communities In Schools' March 2006 
      Publication, ``Inside CIS''................................    70


                          GULF COAST RECOVERY:
                   FACING CHALLENGES AND COMING BACK



                         STRONGER IN EDUCATION

                              ----------                              


                       Wednesday, April 26, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:05 a.m., in room 
2175, Rayburn House Office Building, Hon. Howard McKeon 
[chairman of the committee] presiding.
    Present: Representatives McKeon, Petri, Castle, Johnson, 
Biggert, Platts, Tiberi, Kline, Inglis, Marchant, Price, 
Fortuno, Jindal, Boustany, Foxx, Drake, Kuhl, Brady, Miller, 
Kildee, Owens, Payne, Scott, Woolsey, Tierney, Wu, Holt, Davis 
of California, McCollum, Bishop, and Jefferson.
    Staff present: James Bergeron, Counselor to the Chairman; 
Amanda Farris, Professional Staff Member; Steve Forde, 
Communications Director; Kevin Frank, Coalitions Director for 
Workforce Policy; Ray Grangoff, Legislative Assistant; Richard 
Hoar, Professional Staff Member; Deborah L. Emerson Samantar, 
Committee Clerk/Intern Coordinator; Amanda Schaumburg, 
Education Policy Counsel; Rich Stombres, Assistant Director of 
Education and Human Resources Policy; Toyin Alli, Staff 
Assistant; Denise Forte, Legislative Associate/Education; 
Lauren Gibbs, Legislative Associate/Education; Lloyd Horwich, 
Legislative Associate/Education; Cheryl Johnson, Counsel, 
Education and Oversight; Tom Kiley, Communications Director; 
Ricardo Martinez, Legislative Associate/Education; Joe Novotny, 
Legislative Assistant/Education; Rachel Racusen, Press 
Assistant; and Mark Zuckerman, Staff Director/General Counsel.
    Chairman McKeon [presiding]. A quorum being present, the 
Committee on Education and the Workforce will come to order.
    We are holding this hearing today to hear testimony on Gulf 
Coast recovery, facing challenges and coming back stronger in 
education.
    Under Committee Rule 12(b), opening statements are limited 
to the chairman and ranking minority member of the committee. 
Therefore, if other members have statements, they will be 
included in the record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.
    Good morning, and thank you all for joining us at this 
hearing, which will focus on the challenges faced and successes 
achieved by Gulf Coast schools in the wake of Hurricanes 
Katrina and Rita.
    I would like to extend a warm welcome to our panel of 
witnesses, who have traveled from their institutions in order 
to provide us their unique insights into what we have done well 
with regard to education in the Gulf Coast region, as well as 
what obstacles we still face.
    I also extend a special welcome to our committee members 
from the Gulf Coast region, as well as those members whose 
congressional districts have opened their arms to families 
displaced from the areas hit hardest by the hurricanes. Our 
prayers remain with you and your neighbors.
    Last year, the Gulf Coast endured one of the worst series 
of hurricanes in our nation's history. Students, workers, 
retirees and families from the region were impacted in ways 
seemingly incomprehensible before the storm struck. And the 
impact of the storms reached far beyond the Gulf Coast. 
Thousands of schools across the Nation opened their doors to 
displaced students, and scores of churches, charities and 
families did the same.
    Looking back months later, it is no secret that there have 
been many bumps in the road. Difficulties have been well-
documented, and constructive criticism has been appropriately 
delivered, all with the hope and the expectation that we have 
learned valuable lessons along the way. But, at the same time, 
we must be cautious not to concentrate solely on what went 
wrong after the hurricanes. Rather, we should balance those 
lessons with an understanding and an appreciation of what went 
right.
    Before our committee today are men and women who have been 
key to the recovery process. They have seen firsthand on a 
daily basis some of what has gone wrong, but more importantly, 
they have been intimately involved in what has gone right.
    There are some real success stories that have arisen from 
this terrible tragedy both in the Gulf Coast region and around 
the country. And it is my hope that we can learn from and be 
inspired by them. And I am hopeful we will hear some of those 
stories here today.
    This committee has been active in driving legislation to 
provide resources to schools and families as quickly as 
possible. And likewise, we have been active in investigating 
why there occasionally may be obstacles as part of that 
process.
    Last year, led by Mr. Jindal and Mr. Boustany, our 
committee pushed legislation to reimburse public, including 
charter and private schools that have enrolled displaced 
students to help those schools get the supplies and equipment 
to reopen their doors and to provide funds to assist 
institutions of higher education that have enrolled displaced 
students, as well as resources for institutions in Louisiana 
and Mississippi that were impacted by the hurricanes.
    We also worked to expand opportunities for quality teachers 
to serve displaced students, to protect Federal student loan 
forgiveness for displaced teachers, to include funds for the 
Head Start Early Childhood Education Program, to defray the 
cost not covered by Federal Emergency Management Agency, and to 
give displaced families easier access to child care services.
    Now, as the academic year during which Katrina and Rita 
struck draws to a close, we have the opportunity and, indeed, 
the obligation to look back, learn from any shortcomings, and 
buildupon our successes. That is a process I hope and expect 
will continue this morning at this hearing. And it is a process 
that this committee will remain committed to in the months and 
years ahead.
    I also want to thank Mr. Castle, subcommittee chairman of 
the K-12 Select--what is the name of your subcommittee?
    Mr. Castle. Education Reform Subcommittee.
    Chairman McKeon. Yes, Education Reform Subcommittee. It 
took me 10 years to form the committee that I was subcommittee 
chairman of, and--anyway, he led a congressional trip down to 
the region. And I want to thank him for doing that and for the 
report that he has brought back to us.
    I look forward to our discussion. I am eager to hear 
thoughts from our witnesses.
    And with that, I yield to my good friend, Mr. Miller, for 
any opening statement that he may have.
    [The opening statement of Chairman McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Good morning, and thank you all for joining us at this hearing, 
which will focus on the challenges faced and successes achieved by Gulf 
Coast schools in the wake of Hurricanes Katrina and Rita. I'd like to 
extend a warm welcome to our panel of witnesses, who have traveled from 
their institutions in order to provide us their unique insights into 
what we have done well with regard to education in the Gulf Coast 
region, as well as what obstacles we still face.
    I also extend a special welcome to our Committee Members from the 
Gulf Coast region, as well as those Members whose congressional 
districts have opened their arms to families displaced from the areas 
hit hardest by the hurricanes. Our prayers remain with you and your 
neighbors.
    Last year, the Gulf Coast endured one of the worst series of 
hurricanes in our nation's history. Students, workers, retirees, and 
families from the region were impacted in ways seemingly 
incomprehensible before the storms struck. And the impact of the storms 
reached far beyond the Gulf Coast. Thousands of schools across the 
nation opened their doors to displaced students, and scores of 
churches, charities, and families did the same.
    Looking back months later, it's no secret that there have been many 
bumps in the road. Difficulties have been well-documented and 
constructive criticism has been appropriately delivered--all with the 
hope and the expectation that we have learned valuable lessons along 
the way.
    But at the same time, we must be cautious not to concentrate solely 
on what went wrong after the hurricanes. Rather, we should balance 
those lessons with an understanding and an appreciation of what went 
right.
    Before our Committee today are men and women who have been key to 
the recovery process. They have seen firsthand, on a daily basis, some 
of what has gone wrong. But more importantly, they have been intimately 
involved in what has gone right. There are some real success stories 
that have arisen from this terrible tragedy, both in the Gulf Coast 
region and around the country, and it's my hope that we can learn from 
and be inspired by them. And I'm hopeful we will hear some of those 
stories today.
    This Committee has been active in driving legislation to provide 
resources to schools and families as quickly as possible, and likewise, 
we have been active in investigating why there occasionally may be 
obstacles as part of that process. Last year, led by Mr. Jindal and Mr. 
Boustany, our Committee pushed legislation to reimburse public, 
including charter, and private schools that have enrolled displaced 
students; to help those schools get the supplies and equipment to 
reopen their doors; and to provide funds to assist institutions of 
higher education that have enrolled displaced students, as well as 
resources for institutions in Louisiana and Mississippi that were 
impacted by the hurricanes.
    We also worked to expand opportunities for quality teachers to 
serve displaced students; to protect federal student loan forgiveness 
for displaced teachers; to include funds for the Head Start early 
childhood education program to defray the costs not covered by Federal 
Emergency Management Agency; and to give displaced families easier 
access to child care services.
    Now, as the academic year during which Katrina and Rita struck 
draws to a close, we have the opportunity and--indeed--the obligation 
to look back, learn from any shortcomings, and build upon our 
successes. That is a process I hope and expect will continue this 
morning at this hearing, and it is a process that this Committee will 
remain committed to in the months and years ahead.
    I look forward to our discussion, and I am eager to hear thoughts 
from our witnesses. And with that, I yield to my friend Mr. Miller for 
any opening statement he may have.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    I, too, want to welcome our witnesses here today.
    I had an opportunity to visit with Father Maestri and 
Superintendent Voitier and President Cowen and President Hughes 
while I was in Louisiana last month. And thank you for taking 
time to come to Washington to update us.
    Mr. Chairman, as you know, several of our members traveled 
to New Orleans and the surrounding areas last month to get a 
firsthand look at the damage, to meet with students, teachers, 
faculty and parents. The pictures we saw in the newspapers and 
on TV did not do justice to the severity of the crisis on the 
ground. Nothing prepared us for what we saw on our arrival to 
the New Orleans area.
    Signs of devastation were everywhere even though it has 
been 7 months since the levees were breached. Houses were off 
their foundations, and in the middle of the streets, water 
marks that are over 10 feet high. There were abandoned cars, 
businesses and mold-plagued schools.
    In some communities, we could clearly see that in spite of 
tremendous efforts by residents, the clean up has been slow and 
the recovery efforts challenged by government complacency. What 
we heard from residents was that they felt they had been 
abandoned by their government.
    During our time with Superintendent Voitier, she shared 
with us how for 5 days after the storm hit, the first rescue 
team in St. Bernard Parish were from Canada. College students 
from SUNO talked to us about still not having a permanent place 
to live 7 months later and then coming to a campus that was 
completely created anew out of trailers and the hard work and 
the ingenuity of the leadership of that campus.
    No person, no family or business was left untouched by the 
devastation of Katrina. We know how the White House and FEMA 
knew about Katrina's powers early on and failed to adequately 
plan for that. And we know how FEMA was hollowed out. 
Unfortunately, the price for that is now being paid by the 
people of the Gulf Coast and of the New Orleans area.
    In fact, I think it was Father Maestri who told us in our 
visit that there were three disasters in New Orleans: There was 
Katrina, then there was Rita, and then there was FEMA.
    And what we saw in our discussions with so many people was 
the inability of FEMA to be able to respond to the real crisis 
situation that they were presented by various colleges, by 
various schools so that they could get up and get running and 
have, in the case of colleges, have the classes available to 
them, be able to welcome an incoming class this fall--in the 
case of elementary schools, to provide space where families 
were starting to return, were wanting to send their children to 
school.
    And we saw great creativity in the case of the SUNO and the 
case of Dillard with President Hughes with the Hilton Hotel. 
The ``Dilton,'' I think, they are calling their college 
temporarily.
    But we also then went out to the campus and witnessed the 
incredible devastation of that campus and saw the kinds of 
resources that are going to be necessary to get back on to 
campus-- that is imperative.
    And it is very clear that I think from all that we heard 
from the people we visited with, that the recovery of the 
educational institutions, both elementary and secondary, and 
the institutions of higher education are absolutely critical to 
the long-term recovery of the New Orleans area and of the Gulf 
Coast region. Not only are they the largest employer in the 
immediate area, but they are training the employees of the 
future.
    They are creating the pipelines to the health care industry 
in the Gulf Coast region, to the educational establishments in 
the Gulf Coast region, to the tourism establishments in the 
Gulf Coast region. These are the institutions which are doing 
that.
    And for families to be able to return, they have to have a 
place to send their children to school. For business to reopen, 
they have to know that the students are going to be there, that 
the colleges will be up and running, and that incoming class 
this fall will also be able to take advantage of the 
opportunity that these institutions have provided for so many 
students over so many years.
    But what we were presented with was the fact that FEMA 
really was in the process of treating this as any other 
disaster, and this simply is not any other disaster.
    And what we heard from college presidents and others was 
that, while they have been, I think, showing a great deal of 
ingenuity and taking a great deal of risk in terms of borrowing 
money, in some cases, against their endowment, in some cases, 
in the open market, in some cases, against their insurance, 
that they were not getting payment from FEMA, and so now they 
are running into a cash-flow problem, that they have gone 
forward with some of the rebuilding, some of the 
reconstruction. But if you were in the home building or in the 
commercial construction business, you would have progress 
payments.
    But what we see is FEMA holding onto the dollar until every 
T is crossed and I is dotted, and therefore, they can only go 
so far on their own credit.
    If FEMA wants to hold back 20 percent of the money at the 
end--and we can haggle over how it was done, whether it was 
done right, wrong or what--that would be one thing. But when 
they are withholding the money on the front end, and then you 
see how the progress and rebuilding can be determined.
    I don't think this is necessarily a problem of the law, I 
think it is a matter of how FEMA is working.
    We also heard from so many people that they constantly had 
to renew contact with FEMA because there was just a constant 
turnover of workers in the area. And you didn't have a 
continuity of a relationship in dealing with the people. And 
where people showed initiative, where people put the schools 
back in place, they now were suggested that they might be 
punished because they did it outside of FEMA's say, and yet 
they had no alternative if they were going to provide 
classrooms and education to those students so that members of 
the community could return to St. Bernard Parish.
    And when you see what they have done with their ingenuity, 
with their courage, with their risk taking, you just wonder why 
we couldn't have been a better partner in that. But it is not 
over. It is not over. They have to go beyond the one school 
that is open. They need to open additional schools, and they 
need to open in a timely fashion.
    We believe after our trip that this really should have been 
done within the Department of Education. The Department of 
Education deals with school construction, deals with technical 
assistance. It knows the people on the ground. They have a 
long-term relationship with many of these institutions. And 
they have other relationships with this institution that can be 
used in terms of guaranteeing that the work is done right, that 
it is done properly, and the taxpayer is protected.
    So I look forward to the testimony from these individuals. 
They were very generous with their time when we were down 
there. They gave us a great deal of insight over those several 
days as to their problems. But I think they also clearly 
impressed upon us the critical need for the recovery of these 
institutions to the economy of New Orleans and to the Gulf 
states generally in terms of the critical role they play in 
preparing people for the future of that economy and, obviously, 
for families that need to have a place to send their children 
so they can come back and rebuild their homes, their 
communities, their businesses and the region.
    Thank you, Mr. Chairman, very much for having this hearing.
    [The prepared statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Ranking Minority Member, 
             House Committee on Education and the Workforce

    Thank you Mr. Chairman.
    I, too, want to welcome the witnesses here today. I had the 
opportunity to visit with Father Maestri, Superintendent Voitier, 
President Cowan and President Hughes while I was in Louisiana last 
month. Thank you for taking the time to come to Washington and update 
us on the recovery efforts.
    Mr. Chairman, as you know several of our members traveled to New 
Orleans and surrounding areas last month to get a first hand look at 
the damage and to meet with students, teachers, faculty and parents. 
The pictures we see in newspapers and on TV do not do justice to the 
severity of the crisis on the ground. Until you see if for yourself, 
you cannot appreciate the magnitude of the situation.
    Signs of devastation were everywhere even though it had been seven 
months since the levees were breached. Houses are off of their 
foundations and water marks are over 10 feet high. There are abandoned 
cars, and businesses and mold plagued schools.
    In some communities, we could clearly see that in spite of the 
tremendous efforts of residents, cleanup has been slow and recovery 
efforts challenged by government complacency. What we heard from the 
residents was that they felt like they had been abandoned by their 
government.
    During our time with Doris, she shared with us how five days after 
the storm hit, the first rescue team into St. Bernard Parish were from 
Canada. College students from SUNO talked to us about still not having 
any permanent place to live seven months after the storm. We heard from 
a teacher who lost her home and her job as a result of the Hurricane.
    No person, family, business or home was left untouched and it still 
showed seven months later in many of the communities we visited.
    We now know that the White House and FEMA knew about Katrina's 
power and potential for devastation. They received reports that Monday 
evening that the levees had been breached. And since that day, time and 
again, this Administration has failed to provide the adequate resources 
needed to help move the Gulf Coast forward.
    In fact, Father Maestri told us during our visit with him that 
three disasters hit New Orleans,--Katrina, then Rita and then FEMA. All 
Disasters--all equally dangerous to the Gulf Coast.
    Our witnesses today will tell you that the Gulf Coast education 
community is gradually recovering from the devastation. The schools are 
not all open yet, but those that are--are taking in students. The 
classrooms exceed capacity in many instances because more and more 
students return each day.
    College students are back in school--or as the Dillard students 
like to say, they are at back in school at the Hotel ``Dilton''--
because those students are attending classes in the Hilton Hotel * * * 
And on other campuses, classes are being held in trailers.
    Teachers and administrators are living in FEMA trailers next to 
schools. Students and their families are living in trailers in front of 
their gutted homes.
    In communities across the country, schools opened their doors to 
displaced students and their families, straining local education 
budgets. Texas has taken in over 40,000 students into its schools, 
Georgia has over 9,000 students, and other states such as California 
and Minnesota have also welcomed families and students. All in all, 49 
states, Puerto Rico and the District of Columbia have to come to the 
assistance of these families.
    So, there are signs of recovery everywhere.
    And, this is due to the determination of the people you will hear 
from today, people who were determined to get the schools opened and 
students back into the classrooms. They overcame the obstacles thrown 
in their path by FEMA and they have done so not knowing if or when 
federal assistance would arrive.
    The Bush administration has made the recovery effort that more 
difficult, by treating this disaster like it was just any other. It is 
not just any disaster. The magnitude of the destruction we saw was so 
great that we need to throw out the old disaster playbook and come up 
with newer, better and more flexible ways of meeting the challenges 
faced by the Gulf Coast.
    This morning, the Democrats on this committee released a report 
calling for the designation of an Education Recovery Czar at the 
Department of Education. This person would be responsible for the 
recovery and rebuilding effort during a disaster--removing FEMA from 
this role.
    We call for increased funding to help rebuild schools, colleges and 
universities--at this point only two percent of the federal disaster 
assistance appropriated by Congress has been designated for education--
$1.4 billion. The damage estimate for one school district alone is one 
billion. Clearly, more resources are needed to help open schools and 
keep them open.
    We also call for greater flexibility for school and college 
administrators to determine how these funds will be used. Each school 
system, college and university had unique needs during this emergency. 
One size does not fit all in this situation.
    Mr. Chairman, I encourage you to schedule additional hearings on 
this issue where we can, in bipartisan fashion, work together to assist 
these school districts. The hurricane season and new school year are 
approaching fast. Gulf Coast Communities deserve to know that this 
time--the Federal Government is prepared to help.

                                 ______
                                 
    Chairman McKeon. Thank you, Mr. Miller, and I appreciate 
you and the other members who have also visited the region.
    I think as you were talking, it reminded me of some of the 
similar things I went through in the earthquake of 1994. Our 
district was devastated, and some of the same problems that we 
had that we are having now we had then with--it would be nice 
if we could learn from all of those experiences and not have 
the same problems reappear, but I guess they do.
    When you were talking about people that are there for a 
short time and then leave, and you have to refamiliarize new 
people, we went through all that same stuff, and it is just 
hard for the people that are suffering that have gone through 
the problems.
    I ask unanimous consent now that Mr. Brady of Texas--and I 
believe Mr. Jefferson of Louisiana is going to join us--be 
allowed to participate in today's hearing. Without objection, 
so ordered.
    We have a distinguished panel of witnesses today, and I 
would like to begin by welcoming all of you here.
    And we have people that have asked to be able to introduce 
you, and we would like to have Mr. Jindal now introduce Dr. 
Cowen, Dr. Hughes and Father Maestri.
    Mr. Jindal?
    Mr. Jindal. Thank you, Mr. Chairman.
    I also want to thank you and Chairman Castle, Bobby Scott 
and the others that came to Louisiana.
    I also want to thank this committee's good work on the K-
12, as well as the higher education bills we have already 
passed as a Congress.
    It is my privilege to introduce three of our distinguished 
panelists.
    The first is Dr. Scott Cowen, Tulane's 14th president. He 
holds joint appointments with Seymour Goodman Memorial 
Professor of Business at the Freeman School of Business, as 
well as being the professor of economics at the Faculty of 
Liberal Arts and Sciences.
    He came to Tulane in 1998 in Case Western Reserve 
University where he is a member of the faculty for 23 years, 
and where he was also dean at its Weatherhead School of 
Management for 14 years.
    He holds several leadership positions in national academic 
and professional associations. For example, he is currently a 
board member of the American Council on Education, a member of 
its nominating committee, executive committee, and chair of the 
planning committee for its 2003 annual meeting.
    He is also a board member of the National Association of 
Independent Colleges and Universities. He is a conference USA 
representative on the NCAA board, as well as a member of the 
NCAA executive committee.
    He is a past president of the American Assembly of 
Collegiate Schools and Businesses, and finally, he was 
appointed chair of the Public School Committee of Mayor Ray 
Nagin's Bring Back New Orleans Commission.
    My wife is a proud graduate of Tulane's undergraduate 
university, as well as their business school.
    I am also pleased to introduce Dr. Marvalene Hughes, the 
president of Dillard University. Dr. Hughes came to see me last 
summer literally weeks before Katrina as she was taking on her 
new assignment. She has endured a baptism of fire. This has 
literally been her first year as president of that 
distinguished university. She was the first woman to hold the 
position of Dillard University permanently.
    She is the former president of California's State 
University Stanislaus. She held executive positions at the 
University of Minnesota, University of Toledo, Arizona State 
University and San Diego State University.
    She is a member of several local and national boards. She 
has written numerous publications and speaks throughout the 
United States and abroad.
    At Tuskegee University, she received her Bachelor of 
Science degree in English and history, Master of Science Degree 
in counseling administration. She has a Ph.D. from Florida 
State University, completed post-doctorate work at Harvard 
University's Summer Institute and Oxford University's 
Roundtable.
    Dillard plays a very, very important role, not only for 
Louisiana, but for our entire nation and has a very proud 
history.
    Finally, I am pleased to introduce Father William Maestri 
from the Archdiocese of New Orleans. He is a superintendent of 
the Office of Catholic Schools.
    My daughter is actually a student of one of their schools, 
and she reports that she was displaced about 5 months. She 
reports she was happy to come back, because she likes lunch 
better at their schools than the schools in Baton Rouge.
    He is a native of New Orleans. He was educated in the 
Archdiocese of New Orleans Catholic School System for 
elementary and secondary schools.
    He did his undergraduate studies at St. Joseph's Seminary 
College, receiving a degree in philosophy with a minor in 
history. Graduated from Tulane receiving a Master's Degree in 
philosophy. Did doctoral studies and seminars over several 
years at University of California Berkeley. His focus is on 
teaching and education, including at law and medical schools in 
New Orleans and California.
    He taught at Tulane, Loyola, Pepperdine and Charity 
Hospital School of Medicine in New Orleans. He has authored 
numerous books, articles and reviews on philosophy, theology 
and public policy.
    He currently serves as the superintendent of Catholic 
Schools for the Archdiocese of New Orleans, as well as the 
director of communications, as well as being the spokesperson 
for the Archdiocese of New Orleans.
    Finally, he works as a theology and philosophy instructor 
at the Notre Dame Seminary College.
    I want to thank him. I know the diocese has taken in 
thousands of students, displaced students, after the two 
storms.
    Mr. Chairman, thank you for the privilege of introducing 
our distinguished panelists. And I believe we have got some 
wonderful panelists from Cameron and St. Bernard Parish. And I 
am going to allow my colleagues to introduce them as well.
    Chairman McKeon. Thank you, Mr. Jindal.
    And Mr. Johnson will now introduce the next witness, Mr. 
Nelson.
    Mr. Johnson. Thank you, Mr. Chairman.
    It is a tremendous honor for me to introduce a terrific 
leader for education in Texas, Richardson Independent School 
District Superintendent Jim Nelson.
    As many of you know, after Hurricanes Katrina and Rita 
ravaged the Gulf, many families found comfort and shelter in 
north Texas. Richardson stepped up to the plate and rolled out 
the welcome mat.
    Richardson ISD is a school district with 34,000 students, 
generally processed and enrolled 1,790 hurricane evacuees. For 
a school district of only 34,000, that is tremendous. There is 
still 790 students in Richardson ISD who may go home or they 
may not. Time will tell.
    According to the Texas Education Agency, nearly 36,000 
Hurricane Katrina students are still enrolled in Texas schools.
    Jim Nelson has a record of success in education and 
leadership. He is been a member of various school boards and at 
times, the president of those boards. Governor Bush then 
appointed Jim Nelson to the newly created State Board for 
Educators Certification in 1996, and he served as chairman 
there until 1999.
    You know, in the spring of 2003, at the request of the 
White House and Department of Defense, Mr. Nelson traveled to 
Baghdad, Iraq, as a senior adviser to the Iraqi Ministry of 
Education to assist with the rebuilding of the Iraqi school 
system. He began his duties as Richardson ISD superintendent in 
the summer of 2004.
    He was also a practicing lawyer for 24 years. We will try 
not to hold that against him. Please give him a big welcome.
    Thank you for allowing me to introduce him, Mr. Chairman.
    Chairman McKeon. If I had known you were going to take 
shots at lawyers, I might have not allowed you to do that 
introduction. We will let it go this time.
    [Laughter.]
    Mr. Boustany, you may introduce the next witness, Dr. 
Chance.
    Mr. Boustany. Thank you, Mr. Chairman.
    Mr. Chairman, it gives me great pleasure to introduce my 
constituent and a true leader in the southwest Louisiana 
education community, Dr. Doug Chance.
    Doug has served as superintendent of Cameron Parish Public 
Schools since January of 2003. And as my colleagues know, 
Cameron Parish was ground zero for Hurricane Rita. The storm 
destroyed 62 percent of all school facilities in the parish, 
yet under Dr. Chance's leadership, classroom instruction 
resumed 24 teaching days after Rita made landfall.
    I have had the honor of working with Doug in the months 
since Rita's devastated southwest Louisiana, and there really 
is no one more qualified than he to provide the committee with 
an accurate assessment of the storms impact on our public 
education systems and the progress we are making toward 
recovery.
    Dr Chance has a long and distinguished career as an 
educator. Prior to joining Cameron Parish Public Schools, he 
served as vice president for academic affairs and professor at 
Howard Payne University in Brownwood, Texas.
    He also served as a lecturer and instructor at Northwestern 
State University in Natchitoches, Louisiana, and at McNeese 
State University in Lake Charles, Louisiana, where he received 
his Bachelor's, Master's and Doctorate in education.
    I am very proud to have Dr. Chance representing the 7th 
District of Louisiana today, and I welcome his testimony. Thank 
you.
    Chairman McKeon. Thank you, Mr. Boustany.
    And last but not least is Ms. Doris Voitier, who was 
appointed superintendent of St. Barnard Parish Public Schools 
on August 10, 2004. She became superintendent after a 33-year 
career in the St. Bernard school system following experiences 
as a high school mathematics teacher, supervisor of accounting 
and instruction, associate superintendent for finance and 
support services, and assistant superintendent.
    As superintendent, she is spearheading efforts to rebuild 
the school district in the wake of Hurricane Katrina, which has 
destroyed each of the system's 20 buildings and schools.
    And we appreciate you being here too, Ms. Voitier.
    Let me just explain the sequence of events here. We will go 
in the same order which you were introduced, from my left to my 
right. And each of you has 5 minutes. The light system is green 
for 4 minutes, yellow for 1 minute, and then red thereafter. So 
if you see red, you want to sort of think about wrapping up if 
you could.
    And then each member up here--and there is a lot of 
interest in this hearing--will have 5 minutes to ask questions. 
I will probably have to repeat this, but just remember, not all 
of you can answer every question in a 5-minute period to give 
the members a chance to say what they want to say and answer 
questions. So as you get to the Q and A period--generally, we 
can't even ask a question in 5 minutes, much less have you 
answer it in the 5-minute period, so we need to be a little bit 
cautious about that.
    But we are delighted to have you here.
    A number of us here have had a chance to go down to the 
region that was affected by the hurricanes and have great 
empathy with what has happened there. And our goal, frankly, is 
to determine what we can do as a committee of Congress working 
with the administration to relieve, continue to relieve--I 
think this is going to go on for a long time--a number of the 
problems you have. And, hopefully, this hearing will help point 
us in that direction.
    So with that, Dr. Cowen, we will start with you, sir.

     STATEMENT OF SCOTT S. COWEN, PH.D., PRESIDENT, TULANE 
                           UNIVERSITY

    Mr. Cowen. Mr. Chairman and members of the committee. Thank 
you for assisting with education recovery efforts in the wake 
of Hurricane Katrina, and thank you for giving me this 
opportunity to speak with you today.
    In particular, I want to acknowledge Congressman Jindal and 
Charles Boustany, members of the Louisiana Delegation, for 
their support of education in our state.
    I am going to briefly discuss post-secondary and K through 
12 education in my dual roles as president of Tulane University 
and chair of the Bring New Orleans Education Committee.
    Overall, education, both K through 12 and post-secondary, 
have made significant progress since the hurricane despite 
almost overwhelming challenges. But we still have a long way to 
go before education in our city and region are back to anything 
that approaches what we used to deem normal.
    First, the good news for higher education. When Tulane and 
the other 14 public and private colleges and universities in 
New Orleans, including Dillard University, led by my good 
friend, Dr. Hughes, reopened in January, it represented a 
significant step in our city's recovery. Fifty-five thousand of 
the more than 84,000 college students who were enrolled in our 
institutions prior to Katrina returned. At Tulane, we welcomed 
back 88 percent of our full-time students.
    Our colleges and universities represent a significant part 
of the region's post-Katrina employment picture. Approximately 
20,000 jobs are associated with higher education in the city. 
And as an industry, higher education is a critical economic 
development engine for New Orleans.
    In fact, when Tulane University opened up on January 17, 
that week alone, the population of the parish increased by 20 
percent in 1 week just because of our reopening. The future of 
higher education in New Orleans looks much brighter than we 
could have hoped for 8 months ago.
    But I would be very remiss if I presented a picture of 
complete recovery, because higher education still faces many 
challenges. For example, at Tulane University, we face between 
$150 million and $250 million in physical damage to our campus, 
in addition to an anticipated operating loss of $100 million 
this year, as well as another to-be-determined operating loss 
for next year and the years thereafter.
    To reopen in January, we borrowed $150 million, which put 
us at out maximum borrowing capacity. To date, 8 months after 
Hurricane Katrina, we have seen no money from FEMA and only 
partial relief from private insurance.
    In order to achieve financial stability, we announced in 
December 2005 a sweeping reorganization of Tulane University 
that represents the largest restructuring of an American higher 
education institution in more than a century in the United 
States.
    The recruitment and retention of top-tier students and 
faculty remains difficult because of the lingering doubts about 
the ability of New Orleans to fully recover.
    New Orleans and its surrounding region cannot recover 
without the survival of its colleges and universities. Higher 
education pumps approximately $3 billion each year into the 
region's economy, and Tulane University alone is now the 
largest employer--public or private--in New Orleans by a factor 
of two.
    I understand that Congress faces many issues related to 
Gulf Coast recovery, and spending must be done wisely. As one 
of the few fully functioning industries in New Orleans, a 
healthy higher education community with its influx of 
intellectual capital, its ability to conduct and attract high 
quality research and educational programs, and its economic 
development potential is crucial to our immediate recovery and 
our future success.
    Congress has played and will continue to play a major role 
in ensuring the health of our higher education community. The 
establishment of an $800 million education relief loan program 
would provide us with desperately needed cash as bridge funding 
to assist with the retention and recruitment of faculty and 
students, as well as helping us rebuild or campuses until funds 
are received from insurance and FEMA.
    We ask the committee's careful consideration of this 
repayable loan program. Your support of this important 
initiative is critical to our survival and success in 
rebuilding higher education and in rebuilding New Orleans.
    Now I would like to turn our attention to K through 12 
education in New Orleans. Prior to Hurricane Katrina, New 
Orleans has one of the worst public school systems in the 
nation. Hurricane Katrina has given us a once-in-a-lifetime 
opportunity to turn it into one of the best. I am pleased to 
have led a team that developed a long-term vision and plan for 
our school system in Orleans Parish.
    Since schools began reopening in November 2005, each school 
has reached its full capacity within 1 to 2 weeks. To date, 
only 20 percent of pre-Katrina schools have reopened with an 
enrollment of 12,000 students. The vast majority of these 
schools have opened as charter schools, thanks to special 
grants from the Department of Education and from the private 
sector.
    Our charter school strategy has been integral to the 
immediate recovery of public education in New Orleans. There 
are many challenges that currently face the New Orleans public 
school system. However, the largest and most immediate 
challenge is rebuilding damaged school facilities by August, 
when we expect our current school population to double.
    Katrina damaged 70 percent of the public school buildings 
in Orleans Parish causing an estimated $800 million to $900 
million in property damage alone. To date, there is neither 
sufficient funds nor a commitment of funds to repair facilities 
for approximately 30,000 returning students.
    Therefore, I urge you to support the school system's 
request for approval from FEMA for immediate funding of 
temporary repairs, as well as an extension of the June 30th 
completion deadline.
    Without repairs to our schools and the extension of the 
deadline, we run the risk of not having enough classrooms when 
the children of New Orleans come home.
    Both higher education institutions and K through 12, public 
education system must overcome many challenges. But with the 
support of the American people and our public leaders, 
including this committee, we will recover. Education is and 
will continue to be the cornerstone in the immediate and long-
term revitalization of New Orleans.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Cowen follows:]

    Prepared Statement of Scott S. Cowen, Ph.D., President, Tulane 
                               University

    Mr. Chairman and members of the Committee: Thank you for the 
opportunity to speak to you today regarding educational recovery in the 
city of New Orleans since Hurricane Katrina came ashore on Aug. 29, 
2005. We have made enormous progress despite almost overwhelming 
challenges, and still have a long way to go before education in our 
city and region are back to anything that approaches what we used to 
deem ``normal.''
    First, I want to thank the Committee for your actions in helping 
higher education recovery efforts in New Orleans-specifically, 
legislation that provided loan forgiveness to our students, the 
reallocation of campus-based aid, and the waiver authority given to the 
Department of Education. I would also like to thank the Department of 
Education for its tireless efforts on behalf of our institutions and 
our students.
Higher Education: The Good News
    When Tulane and the other 14 public and private colleges and 
universities in New Orleans reopened in January, it represented a 
significant step in our city's recovery. Of the more than 84,000 
college students that were enrolled in our institutions prior to 
Katrina, more than 55,000 of them returned. Tulane welcomed back 88 
percent of our full-time students, including 85 percent of our freshman 
class-remarkable, considering these students spent only a few hours on 
campus before having to evacuate. The energy and enthusiasm these 
students brought with them instilled an almost instantaneous air of 
hope into a city still reeling from the devastation of Katrina.
    Our colleges and universities also represent a significant part of 
the New Orleans post-Katrina employment picture. Approximately 20,000 
jobs are associated with higher education in the city, and most of our 
universities struggled to continue paying our faculties and staffs 
during the evacuation and post-Katrina period-both because it was the 
right thing to do, and because we knew a mass exodus of educated 
professionals to other areas would deal another devastating blow to not 
only our own institutions but the city, state and region.
    The return of our higher education workforces throughout November, 
December and January reinvigorated our neighborhoods and businesses. 
They are key cornerstones to rebuilding our city and region.
Higher Education: The Challenges
    The future of higher education in New Orleans looks much brighter 
than we ever could have hoped for eight months ago following Katrina. 
But I would be remiss if I presented a picture of complete recovery, 
because that is simply not the case. Our higher education community, 
including Tulane University, still faces many challenges before it can 
say it has fully recovered from Katrina.
    The price of our January return and reopening has been steep. I 
will speak primarily of Tulane University's experiences here because 
that is what I know best, but rest assured that each and every higher 
education institution in the New Orleans area is undergoing significant 
ongoing challenges in terms of finances and student retention.
    As I stated previously, Tulane University felt it was crucial to 
continue paying employees during the four months we were closed so that 
we could retain critical faculty and staff members. We also faced more 
than $150 million in physical damage to our campus. In order to reopen 
in January, we borrowed $150 million and countless more in lost 
research and library assets, which maxed out our borrowing capacity. We 
have seen no money at all from FEMA and little relief from private 
insurance. In order to achieve financial stability, in December we 
announced a sweeping reorganization of Tulane University that 
represents the largest university restructuring of an American 
institution in more than a century. We were forced to lay off more than 
400 full-time staff members and more than 160 faculty members, 
including a third of our medical school faculty, plus eliminate long-
standing academic programs in engineering and reduce our Division I 
athletic programs by 50 percent. The reorganization will save us $50 
million, but we still face a $100 million budget deficit this year as 
well as a $25 million deficit next year. Attracting and retaining top-
tier students and faculty to New Orleans remains difficult despite our 
best efforts because of the lingering doubts about the ability of the 
city itself to fully recover.
Higher Education: Looking Forward
    Put simply, New Orleans and its surrounding region cannot recover 
without the survival of its colleges and universities. Higher education 
pumps approximately $3 billion each year into the region's economy. 
Tulane University is a major part of that. Prior to Katrina, Tulane 
University was the largest private employer in Orleans Parish; now it 
is the single largest employer of any type. The university' economic 
impact on the New Orleans economy before Katrina totaled more than $842 
million a year; our impact on the state's economy totaled more than 
$1.12 billion a year. The closing of Tulane University for four months 
following Hurricane Katrina had a devastating effect on not only the 
university, but the city and state.
    We will continue to need your help in our ongoing efforts to revive 
higher education in the city and region. I understand that Congress 
faces many issues related to Gulf Coast recovery, and that spending 
must be done wisely and with an eye toward what will offer the greatest 
benefit to the most people. As one of the few fully functioning 
industries in New Orleans, a healthy higher education community-with 
its influx of intellectual capital, its ability to conduct and attract 
high-quality research and educational programs to the region, and its 
economic development potential-is crucial not only to the region's 
immediate recovery but to its future success.
    Congress can play a major role in ensuring the health of our higher 
education community. As our institution members have discussed with 
your Committee, we are still in desperate need of additional 
institutional assistance. The establishment of an Education Relief 
Program, along the lines approved by the Senate Appropriations 
Committee in the pending Emergency Supplemental Appropriations Bill, 
would provide funds to assist us with the overwhelming task of 
compensating for lost tuition and revenue while we also rebuild and 
repair our facilities. I realize such a program may be difficult in 
these tight budgetary times, but we ask the Committee's careful 
consideration of this proposal, or something similar, before making any 
final judgments. The Committee's ultimate support for additional 
relief, along the lines of the Senate action thus far, is vital to our 
institutions. I would emphasize that the Senate's Education Relief 
Program is a re-payable loan program for only those colleges and 
universities that were forced to suspend operations and were not able 
to re-open fully in existing facilities due to Hurricanes Katrina and 
Rita. The Secretary of Education would administer the program and 
provide support directly to the institutions, something that is 
critical to the get the relief to only those who need it and to ensure 
taxpayer's dollars are spent wisely.
    If the Senate Emergency Supplemental Appropriations Bill is sent to 
conference committee with the House, with the Education Relief Program 
intact, your Committee's continued support and that of the House 
Appropriations Committee and House Leaders is critical to our short- 
and long-term survival and success in rebuilding New Orleans.
    As I have said, Tulane has done surprisingly well in retaining our 
undergraduates in the wake of Katrina. Unfortunately, the picture is 
not as rosy with our graduate students. The consolidation of many of 
our graduate programs, required for financial viability, has made it 
difficult to attract these students back to New Orleans. If the region 
is to fully recover, we must address this problem. Not only do graduate 
students drive local economies through their participation in research, 
they fill highly skilled jobs and represent a potential resource for 
the reconstruction and revitalization of New Orleans. Graduate students 
aren't just bright-they're tireless, enthusiastic and engaged, and many 
would relish the opportunity to use their expertise in bringing New 
Orleans back through research, development, planning, engineering, and 
volunteerism. But this opportunity is not enough in and of itself-
graduate students need financial support so they can devote their full 
attention to their academic and volunteer activities. Within the 
Department of Education, there are several graduate programs that could 
be helpful to us if the Committee would recommend temporary preference 
to institutions affected by the hurricanes and students applying to our 
institutions. These include:
    <bullet> Graduate Assistance in Areas of Need (GANN);
    <bullet> Javits Fellowships;
    <bullet> Ronald E. McNair Postbaccalaureate Achievement Program.
    Outside the Department of Education, programs for which your 
support would be very helpful include: the National Science Foundation 
Graduate Research Fellowships; NSF Integrative Graduate Education and 
Research Traineeships, National Institutes of Health Ruth L. 
Kirschstein National Research Service Award Research Training Grants 
and Fellowships, Department of Defense National Defense Science and 
Engineering Fellowship Program; and the Department of Homeland Security 
Fellowships and Scholarships Program.
K-12 Education: The Good News
    The damage from Hurricane Katrina and subsequent flooding in the 
city of New Orleans is still being tallied. But with disaster comes 
opportunity, and nowhere is that more evident than in K-12 public 
education in New Orleans. Prior to Katrina, New Orleans had one of the 
worst public school systems in the nation. Katrina has given us a once-
in-a-lifetime opportunity to turn it into one of the best.
    The Orleans Parish public school district, with roughly 60,000 
students pre-Katrina, was the 49th-largest public school district in 
the United States. The numbers tell the story of the problems this 
school system faced:
    <bullet> Of 117 public schools, 107 were academic ``failures'' by 
any number of measures and were struggling to improve academic 
performance to avoid state takeover.
    <bullet> Seventy-five percent of eighth-graders scored below state 
averages and had failed to reach basic proficiency in English.
    <bullet> Dropout rates were the seventh highest in the United 
States and four times the Louisiana average.
    <bullet> Decades of neglect and mismanagement had created both a 
budget shortfall and serious debt load for the parish school board.
    Before Katrina, the state of Louisiana developed a Recovery School 
District to take command of the five lowest-performing schools. After 
Katrina, an additional 102 failing schools were put under the auspices 
of the state-run district.
    Since schools began re-opening in November 2005, each school has 
reached their full capacity within one to two weeks of their opening. 
To date, 25 of the 117 schools have reopened, serving 12,000 students-
which represents only 20 percent of the pre-Katrina student population. 
The U.S. Department of Education and Federal government continue to 
provide assistance to help our city recover and get families back on 
their feet. The Department of Education has provided more than $20 
million through a special charter school grant to Louisiana, enabling 
numerous public schools in New Orleans to reopen as charter schools, 
expediting children's education and the region's recovery. 70 percent 
of public schools currently open are charter schools, managed by the 
Recovery School District, the Orleans Parish School Board, or the State 
Board of Education.
    As one of 17 members of New Orleans Mayor Ray Nagin's Bring New 
Orleans Back Commission and chairman of its committee on public 
education, I was pleased to have led a team in carefully envisioning 
what our troubled public school system could become if it were given 
enough planning, leadership and resources.
    The Bring New Orleans Back Education Committee led a comprehensive 
process to develop a plan to transform New Orleans school system. We 
received input from a diverse group of more than 1,500 students, 
parents, teachers, business leaders and community members from New 
Orleans to ensure the plan represented the voice of our city. 
Additionally, education experts from around the world provided insights 
into what has worked in high-performing schools with similar students 
and similar socioeconomic factors. Using this extensive research, the 
Education Committee developed a plan to fundamentally change the way we 
run our schools. In January, the Education Committee presented a 
blueprint for reinventing New Orleans' public school system. There is a 
great hope for this plan, and recognition by everyone involved that we 
have a rare opportunity to turn things around.
    Among the plans and goals:
    <bullet> Delivering learning and achievement for all students, 
regardless of race, socioeconomic class or where they live in New 
Orleans, with the goal of graduating all students ready for college and 
the workplace. New Orleans public school students are 96 percent 
African-American and three-quarters of them qualify for free or 
reduced-price lunch programs. That should have absolutely no bearing on 
the quality of the education they receive or the opportunities that 
education will afford them.
    <bullet> Developing a new school-focused philosophy that empowers 
the schools to make more of their own financial and administrative 
decisions rather than relying on a central oversight board.
    <bullet> Establishing a new Educational Network Model that 
organizes schools into small groups, or networks, to provide support, 
foster collaboration and ensure accountability.
    <bullet> Encouraging new partnerships with business, faith-based, 
or community groups to develop programs for learning enrichment and 
emotional and psychological well-being.
    We can take advantage of this opportunity to systemically transform 
the New Orleans public school system, which can be used as a model for 
other urban school districts.
K-12 Education: The Challenges
    We have a unified vision for what the New Orleans public school 
system should look like. Our challenge as we move into the fall, when 
we expect up to 50 percent of our pre-Katrina public school students to 
be back, is to make sure that schools are reopened in accordance with 
that long-term plan.
    There are three key challenges New Orleans faces as it reopens and 
rebuilds its public school system.
    First, the results of an extensive demographic study place fall 
student enrollment projections between 28,500 and 34,000. This 
projection, and the fact that each subsequent school fills to capacity 
shortly after opening, substantiate the need for more schools in New 
Orleans for the 2006-07 school year. The currently available facilities 
will not provide the necessary capacity to meet this demand; therefore, 
additional facilities are required.
    Second, many decisions regarding short-term planning will have to 
take into consideration the repopulation of various areas of the 
parish, the student population in those areas, and the cost to rebuild 
schools that meet the flood mitigation requirements. There are multiple 
governing bodies responsible for making these decisions, including the 
Orleans Parish School Board, the Recovery School District, and the 
Louisiana Board of Elementary and Secondary Education. As they work 
towards re-building public education in the parish, immense 
coordination in the short and long terms and a shared vision are the 
only ways to ensure success.
    Third, the Orleans Parish school system is facing a financial 
crisis. Without the help of one-time funds, loans and deferral of 
substantial unemployment compensation liabilities, the system faces an 
estimated $111 million cash-flow shortfall through June 30 and $275 
million in legacy debt. Decreases in local revenue mean an estimated 
$1,400 per child less in 2006-07 than before Katrina.
    Given sound financial management, dedicated leadership and a spirit 
of cooperation among all members of our community, the outlook for the 
Orleans Parish public school system is brighter than it has been in 
many, many years. It will require vigilance and diligence on everyone's 
part to ensure that we continue to make progress toward the long-term 
vision that has been developed.
K-12 Education: Looking Forward
    Thanks to the federal funds that have been made available to the 
New Orleans education system, schools have been able to accommodate an 
increasing number of returning families. Unfortunately, as is the case 
with higher education, the K-12 system has received no assistance from 
FEMA in covering the considerable repair costs for its facilities. 
Katrina damaged 70 percent of the public school buildings in Orleans 
Parish, causing an estimated $800-$900 million in property damage and 
more than $250 million in business interruption losses.
    Currently, the school system is planning for the return of twice as 
many students this fall. It has been determined that the repair of 
existing facilities to be used as temporary facilities, as opposed to 
the installation of modular classrooms, is the most cost-effective and 
viable strategy. In addition, this approach is more educationally sound 
for the public school children of Orleans Parish. There have been 
neither funds nor a commitment of funds for temporary repairs that must 
be made before the next hurricane season begins on June 1-a deadline 
that is virtually impossible to achieve. Therefore, I urge you to 
support the school system's request for approval from FEMA for the 
repairs to these facilities to be classified as Category B temporary 
work under the Stafford Act. The precedent has been set for 
consideration of this request based on temporary repair of existing 
applicant buildings in the California State/Northridge repairs in a 
previous disaster. The same consideration for this request is 
requested.
    As I previously mentioned, the deadline for temporary repairs ends 
June 30. With less than a third of the necessary work complete, I am 
requesting that the Committee support the extension of temporary 
repairs until the end of the year. Without the assistance from FEMA for 
facilities and the extension of the repair completion deadline, we run 
the risk of not having enough classrooms ready to educate returning 
children in August.
Higher Education and K-12: Conclusion
    Repaired levees and rebuilt homes and businesses are things New 
Orleans needs in order to survive in the short term. But it is through 
its system of education at all levels that the city can achieve the 
substantive change, success and energy that it needs to become a 
healthy and thriving urban center.
    Both our higher education institutions and our K-12 public 
education system have many challenges still to overcome. But with the 
support of the American people and through our public leaders such as 
those of you on this Committee, we will recover. And through our 
recovery will come the biggest-possible boost to the long-term 
revitalization of the city of New Orleans.
                                 ______
                                 
    Chairman McKeon. Thank you very much, Dr. Cowen. We 
appreciate your testimony.
    Dr. Hughes?

   STATEMENT OF MARVALENE HUGHES, PH.D., PRESIDENT, DILLARD 
                           UNIVERSITY

    Ms. Hughes. Good morning. Good morning, Mr. Chairman and 
members of the committee. I want to thank all of you for taking 
the time today to cause us to focus on the tremendous progress 
that we have made. Sometimes we become so focused on surviving 
that we forget the progress.
    I especially want to thank Representatives Jindal and 
Boustany, who have worked so tirelessly to assist us in higher 
education following Hurricane Katrina.
    I also want to thank the committee for its work related to 
legislation that provided critical financial aid assistance and 
loan forgiveness to our students whose education studies has 
been disrupted by Katrina.
    It is important for me to pause to say immediately that the 
Department of Education has been a critical part in our 
recovery today.
    To give you a little background on Dillard University, 
Dillard University is a private historical black college. It 
was founded in 1869 and is located in the Gentille neighborhood 
of New Orleans.
    Dillard has long been a cornerstone of educational 
excellence in the New Orleans community for 137 years. A 
majority of Dillard's students are the first in their families 
to attend college, one of the several critical roles that 
Dillard University has played in New Orleans and the state of 
Louisiana and throughout the country.
    Dillard has always made the commitment of producing 
African-American men and women dedicated to public service 
throughout the world.
    I joined Dillard University on July 1, 2005, almost 2 
months to the date before Hurricane Katrina. Through my years 
of administrative service as president at California State 
University Stanislaus, I thought I had prepared for a 
presidency in my many administrative posts, but nothing 
prepared me for what I found when Hurricane Katrina arrived.
    Dillard University was totally devastated by Hurricane 
Katrina. To get the picture of the severity of this 
devastation, if you can just imagine one campus totally under 
water 8 to 10 feet for about 3 to 4 weeks. As a result, the 
hurricane caused significant damage affecting almost all of 
Dillard's facilities.
    Dillard estimates that its losses are in the hundreds of 
millions of dollars. We had three residence halls that were 
completely destroyed by fire, two or three other buildings that 
will be demolished, and currently, all of our buildings have 
been gutted and remediated. It took about 7 months to complete 
that process.
    Following campus clean up, we were able to identify a 
construction company, and the campus is now under construction. 
The devastating impact of Hurricane Katrina and the lack of 
tuition revenue over the entire first semester left Dillard 
University in a drastically reduced situation. Two-thirds of 
our faculty were reduced, and we currently have a little over 
50 percent of our students.
    Dillard University could not return to its home campus as 
you well know, but we were determined to return to New Orleans 
because New Orleans is our home, and we wanted to be a part of 
the economic recovery. So we relocated in the Hilton Hotel 
where living and learning are occurring for faculty staff and 
students together. Because we were unable to have access to 
science laboratories and libraries as would be necessary, my 
good friend, Scott Cowen, has been very instrumental in making 
all of these facilities available to us.
    We are hoping that we will be able to return to occupy some 
of our campus beginning in the fall. It had been anticipated by 
some that we would leave the state. Now, we had even been 
invited to go to Atlanta, Georgia, but I thought with the kind 
of 137 years of legacy established by Dillard University, that 
it was important we return. So Dillard University has returned 
home. And about 50 percent of our students are there in spite 
of the fact that they could not return to their campus. 
Currently, we are all living together.
    Again, I thank you for the assistance Congress has provided 
to assist higher education institutions for the losses that we 
have suffered during Hurricane Katrina. federally appropriated 
funds received through the hurricane relief legislation passed 
in December 2005 will assist the university in its efforts to 
rehire its exceptional faculty, to rebuild lost academic 
programs and to retract students to rebuild lost enrollment. 
That will be a major challenge for us. Although we are making 
significant progress in restoring our campus facilities so that 
we can welcome our students back to campus this fall, there is 
much to be done.
    While Dillard is pursuing all of its options through 
insurance, FEMA and private philanthropy, Dillard has needs 
that Congress can continue to assist us with. Dillard's 
estimated rebuilding costs are far greater than the amount 
Dillard anticipates to receive from FEMA and insurance.
    Dillard University and many other institutions have not yet 
received the kind of support that is going to be necessary to 
sustain us. We request that the House of Representatives and 
the committee supporting education relief loan program for 
higher education institutions, as well as amending the 
historically black college and university capital financing 
program to provide long loan terms that are favorable to those 
HBCUs affected by the Gulf Coast. These programs will provide 
the bridging finance to higher education institutions that are 
so essential to our recovery.
    In conclusion, when classes resume on the Dillard campus 
this fall, the exceptional academic quality for which Dillard 
University has long been noted will not be diminished by recent 
events. Dillard University is indeed determined to come back 
stronger, to come back better, and to come back far improved.
    We will join the members of the education community who are 
part of the consortium that has been formed.
    Mr. Chairman and members of committee, I thank you for all 
the work your committee has done to assist institutions and 
students affected by the Gulf Coast hurricanes, and I ask for 
your continued support for our ongoing recovery efforts. Thank 
you.
    [The prepared statement of Dr. Hughes follows:]

   Prepared Statement of Marvalene Hughes, Ph.D., President, Dillard 
                               University

    Good morning Mr. Chairman and members of the Committee. Thank you 
for taking the time today to focus on the tremendous progress the 
higher education community has made in the wake of Hurricane Katrina 
and to discuss the challenges still facing institutions of higher 
education affected by the Gulf Coast Hurricanes of 2005. I also want to 
thank Representative Bobby Jindal for his tireless work on behalf of 
institutions of higher education that were affected by Hurricane 
Katrina. I want to thank the Committee for its work related to 
introducing and passing legislation that provides critical financial 
aid assistance and loan forgiveness to our students many of whom rely 
on financial aid, reallocation of campus-based aid, and providing the 
Department of Education with waiver authority as it relates to 
financial aid requirements for those students whose academic studies 
were disrupted as a result of Hurricane Katrina. I would also like to 
note, since immediately after Hurricane Katrina, the Department of 
Education has never waivered in its support of those higher education 
institutions that were devastated by Hurricane Katrina and is a 
critical partner in our recovery efforts.
Background on Dillard University
    Dillard University, a private, historically black college/
university (HBCU) located in the Gentilly neighborhood of New Orleans, 
has long been a cornerstone of educational excellence in the New 
Orleans community. Dillard's historical origin dates back to 1869 when 
the lawyers who defended Africans from the slave ship Amistad founded 
what was to become Dillard University. Dillard has always made the 
commitment to producing African American men and women dedicated to 
public service throughout the world.
    A majority of Dillard students are the first in their family to 
attend college, one of several critical roles that Dillard University 
serves in New Orleans and the State of Louisiana. Dillard also is an 
integral part of the New Orleans economy by providing employment to a 
significant number of New Orleans citizens in lower income communities.
    Approximately 41 percent of Dillard students pursue advanced 
academic studies within five years of graduation. Dillard graduates 
have gone on to graduate programs at such schools as Columbia, Emory, 
Harvard, Johns Hopkins, Northwestern, Ohio State, Temple and the 
University of New Orleans.
    Dillard University students can choose among 38 academic majors in 
six academic divisions--Social Sciences, Natural Sciences and Public 
Health, Humanities, Business, Nursing, and Educational and 
Psychological Studies. Over 30 percent of Dillard's students graduate 
from the Division of Natural Sciences and Public Health with a 
bachelor's degree in biology, chemistry, physics, mathematics or public 
health.
    In 2005, U.S. News and World Report ranked Dillard among the top 10 
liberal arts universities in the South. In addition, Dillard is the 
only university in Louisiana to earn an A+ rating for four consecutive 
years in its teacher training program. Dillard has earned an 
international reputation for excellence, attracting students from the 
greater New Orleans metropolitan area, the state of Louisiana, 34 other 
states and District of Columbia, and more than a dozen other countries. 
It is critical that the Dillard University remain a vital part of the 
New Orleans educational landscape and community.
Impact of Hurricane Katrina on Dillard University
    I joined Dillard University on July 1, 2005, almost two months to 
the date before Hurricane Katrina. Through my years as college 
president at California State University at Stanislaus, nothing could 
prepare me for what I have experienced over the last 8 months. Dillard 
University was devastated by Hurricane Katrina and its subsequent 
flooding. Located in one of the lowest elevation points of New Orleans, 
our campus was engulfed with flood waters as a result of the breached 
levees. As a result, the hurricane caused significant structural damage 
affecting almost all of Dillard University's facilities. Flood levels 
throughout the campus ranged from eight to ten feet, destroying the 
first floors of all dormitories, the Dillard University International 
Center for Economic Freedom Building, and the theater housed in the 
Samuel DuBois Cook Fine Arts Building. Most buildings incurred severe 
roof damage and require a great deal of restoration work, and three 
buildings, including 2 dormitories, will have to be leveled and 
rebuilt. Not only did Dillard sustain wind and flood damage, but 
shortly after the hurricane, fire destroyed three additional student 
dormitory buildings. Due to the flooding, fire and rescue services 
could not reach the campus.
    Dillard estimates that its total capital losses to buildings and 
facilities to be approximately $130 million with soft cost such as 
building contents, faculty salaries and rebuilding lost academic 
programs will range in the tens of millions of dollars. Since most of 
Dillard's campus sustained significant damage, the University's 
facilities will not be able to accommodate students until the Fall 2006 
semester. Dillard began its campus cleanup efforts immediately after 
the hurricane to rid the campus of debris. Currently, the campus 
cleanup is complete and Dillard is in the process of renovating and 
reconstructing the campus.
    The devastating impact of Hurricane Katrina and lack of tuition 
revenue also resulted in the University having to drastically reduce 
two-thirds of its faculty and staff workforce. Of the 350 faculty and 
staff that existed prior to Katrina, Dillard had to lay off 160 faculty 
and staff leaving Dillard with only 190 remaining faculty and staff. 
Although all tenured faculty remain at Dillard and continue to offer 
the finest education to students, one of the University's greatest 
needs is to rehire faculty and staff lost as a result of the hurricane 
as we seek to rebuild our student enrollment.
Higher Education--A Vital Part of the New Orleans Rebuilding Effort
    Higher education and tourism are the two major drivers of the New 
Orleans economy. After Hurricane Katrina, as one would imagine, tourism 
was a mere fraction of its pre-Katrina level. Higher education was one 
of the few industries in New Orleans to become fully functional in 
January 2006. Joining with the other higher education institutions in 
New Orleans, Dillard University reopened its doors in New Orleans in 
January 2006. Due to the extent of damage on campus, Dillard was not 
able to accommodate students on campus this semester. Many advised us, 
since we could not return to our campus in January, to stay in our make 
shift headquarters in Atlanta, Georgia and reopen in the Fall. 
Dillard's administration and its students would not heed that advice. 
Out of an enrollment of 2155 prior to Katrina, 1073 students returned 
to Dillard in January. This is remarkable given the fact that Dillard 
was the only institution of higher education that could not return to 
its campus. Currently, our students, faculty and staff are being housed 
at the Hilton Riverside Hotel. The Hilton's ballrooms were converted to 
classroom space. We are extremely grateful to all those in New Orleans 
who have offered assistance to the University, its students, faculty 
and staff during this difficult period, and other universities like 
Tulane University, who graciously offered use of its science laboratory 
facilities while our campus undergoes extensive repairs.
    We are making significant progress in restoring our campus' 
facilities, importantly, we will hold our commencement on July 1st on 
the Avenue of the Oaks at Dillard University for the Senior Class of 
2006. Dillard has remediated the damage and is working expeditiously to 
renovate and restore all damaged buildings on its campus. Dillard is on 
track to reopen its gates and welcome students back onto its campus 
this fall. However, there remains much work to be done. Five 
dormitories must be rebuilt and classrooms, the library, administration 
headquarters, the student union and the gymnasium must be restored and 
the campus grounds re-landscaped.
Challenges Facing Dillard and the Higher Education Community
    On behalf of Dillard University, I thank you for the assistance 
Congress has provided to higher education institutions for direct and 
incremental losses due to Hurricane Katrina. Federally appropriated 
funds received through the Hurricane Relief legislation passed in 
December 2005 will assist the University in its efforts to rehire its 
exceptional faculty, renovate classrooms, dormitories, and other 
critical university buildings, and reattract students to Dillard. The 
legislation that provided for reallocation of campus based aid and 
forgiveness has been a tremendous help for those students living in the 
area whose families lost everything and rely on financial aid to pay 
their tuition. Indeed, the average income of a Dillard University 
student's family is $30,000.
    While Dillard is pursuing all of its options through insurance, 
FEMA, and private philanthropy, Dillard still needs Congress' 
assistance. Dillard's estimated rebuilding costs are far greater than 
the amount Dillard has received from the initial appropriation of 
federal funds in the third supplemental and what we anticipate to 
receiving from FEMA and insurance. Dillard is using the federal funds 
received to seed faculty positions, and to rebuild lost academic 
programs. Dillard University and many other institutions similarly 
situated, have not yet received funds from FEMA and the university is 
not in a position to wait for insurance settlements that could be 
months or years away to rebuild if the university is to survive. We 
request that the House of Representatives and this Committee support 
the provisions of the Hurricane supplemental spending bill offered by 
the Senate Appropriations Committee which provides for an Education 
Relief Loan Program for higher education institutions as well as 
amending the Historically Black College and Universities (HBCUs) 
Capital Financing Program to provide loan terms favorable to those 
HBCUs affected by the Gulf Coast Hurricanes. These programs will 
provide bridge financing to higher education institutions so that the 
schools can immediately rebuild their facilities and programs while 
they wait for FEMA and insurance reimbursement.
    By providing institutions with favorable loan terms under repayable 
loan programs such as the HBCU Capital Financing Program and the 
Education Relief Loan Program, Congress will continue to provide 
invaluable assistance to universities in their extensive rebuilding 
effort.
Conclusion
    When classes resume on the Dillard campus this fall, the 
exceptional academic quality for which Dillard has long been noted will 
not be diminished by recent events. Dillard will continue to be a 
cornerstone of excellence and a critical part of the New Orleans 
community and will provide a top tier educational institution for its 
students, the citizens of New Orleans, the state of Louisiana and the 
nation. Mr. Chairman and Members of the Committee, I thank you for all 
the work your Committee has done to assist institutions and students 
affected by the Gulf Coast hurricanes, and I ask for your continued 
support for our ongoing recovery efforts.
                                 ______
                                 
    Chairman McKeon. Thank you.

STATEMENT OF FR. WILLIAM MAESTRI, SUPERINTENDENT OF THE OFFICE 
        OF CATHOLIC SCHOOLS, ARCHDIOCESE OF NEW ORLEANS

    Father Maestri. Good morning, Mr. Chairman and members of 
the committee. On behalf of the Archdiocese of New Orleans, I 
would like to thank you for allowing me to testify, and also a 
special word of gratitude to Representative Jindal and 
Representative Boustany.
    The extensive and comprehensive network of Catholic 
education has and is the church's gift to America. For three 
centuries, beginning in 1725, with the arrival of the Ursaline 
sisters, even before there was a public school system, before 
there was America, and before there was a Louisiana, Catholic 
education was present in the Mississippi Valley.
    Water, especially the Mississippi River, was the super 
highway then to a new America, one characterized by 
settlements, as well as gigantic muscular expansion. So it is 
today. New Orleans and Louisiana continues to be essential for 
a strong, vital America for the 21st century.
    Catholic education has been an essential partner and 
presence in that story. Pre-Hurricane Katrina, the archdiocese 
of New Orleans operated 107 schools and close to 50,000 
students in eight civil parishes. As of today, post-Katrina, 
the archdiocese has reopened 83 schools, and almost 40,000 
children have returned to the classroom.
    We have an educational presence once again in all eight 
civil parishes, including Orleans Parish, where we have 29 
schools with 12,297 children back in school, and in St. 
Bernard, where on Ash Wednesday, we opened essential school K 
through 8, and there is a tremendous growing population that 
will be present in the fall.
    At the height of student displacement, the archdiocese made 
welcome hundreds of students from public and non-Catholic 
schools. The largest level of displacement in the history of 
this country was provided by Archbishop Rummel High School, 
which took in over 2,000 displaced students for an entire 
semester and completely remade their school, in fact, operating 
three schools throughout the day in order to accommodate 
displaced students.
    Mr. Chairman, we are not just a church of memory. We are a 
people of hope. And hope is essential for facing great 
challenges. Louisiana has the highest percentage of students in 
the Nation attending non-public schools, 16 percent. Ninety-
eight percent of our students graduate from high school. 
Ninety-seven percent attend college. Eighty to low 90 percent 
graduate from a university, and more than 50 percent of our 
graduates stay in Louisiana and attend Louisiana colleges and 
universities.
    We offer a quality education. The real question is: How can 
we keep the quality and expand the reach? There is a tremendous 
need for a partnership between public and private. Our thinking 
must change in light of Katrina. There needs to be a tremendous 
investment in brick and mortar recovery.
    The archdiocese operates 12,000--1,254 buildings, more than 
1,100 of which were damaged, some very severely, by the storm. 
We must provide more opportunities for Catholic and private 
schools to participate in programs involving public money 
without sacrificing the unique mission and the healthy 
pluralism that is necessary for choice among parents.
    We ask that if at all be possible to allow the archdiocese 
to be recognized as an LEA, a local educational agency, create 
entrance into programs for professional development, teacher 
training in science and math.
    Mr. Chairman, the Archdiocese of New Orleans is not asking 
for special treatment. We are asking for an opportunity to 
compete for grants and funds so that we can continue to serve 
the common good. Our commitment to minority children and 
children of color in Orleans Parish and throughout the 
archdiocese is without equal. Right before Katrina, we operated 
24 schools with over 12,000 children of the inner city. We have 
refused to abandon the inner city because we have that 
commitment. We do not want to do less; we want to do more.
    To conclude, we want, in the archdiocese, a better America. 
We need a strong Louisiana. We cannot abandon the treasure that 
is New Orleans. Education is essential. We need leave no child 
behind, and the way to do that is to make sure that every child 
and family is put first.
    Thank you very much for all of your hard work and that of 
your committee. Thank you.
    [The prepared statement of Father Maestri follows:]

    Prepared Statement of Fr. William F. Maestri, Superintendent of 
              Catholic Schools, Archdiocese of New Orleans

I. Introduction
    Dear Mr. Chairman and members of the House Committee on Education 
and Workforce. My name is Fr. William F. Maestri and I am 
Superintendent of Catholic Schools for the Archdiocese of New Orleans. 
Thank you for the opportunity to testify concerning this most important 
issue--education. Schools and education are an impetus to rebuild as 
they are synonymous with the return of families, the rebuilding of our 
communities and the recovery of the entire Gulf Coast Region.
    In the following testimony, I would like to briefly discuss the 
following areas:
    1. Pre-Katrina situation of the Archdiocese of New Orleans Catholic 
Schools;
    2. The reality of Katrina;
    3. Post-Katrina recovery;
    4. Lessons learned;
    5. Challenges/opportunities moving forward.
II. Pre-Katrina Picture of the Archdiocesan School System
    Prior to Hurricanes Katrina and Rita, the Archdiocese of New 
Orleans operated 107 schools in 8 civil parishes with a student 
population of close to 50,000. These schools included pre-K programs, 
early childhood, elementary and secondary educational opportunities for 
children in the archdiocesan area. In addition to our regular programs 
of study, we had begun a serious effort to address the needs of 
children with special educational needs throughout the archdiocese. 
Among these efforts was the establishment of a new special needs high 
school and a pilot program directed towards children with autism. This 
was the beginning of a serious effort to provide education for regular 
children and children with special needs in their educational 
development.
III. Katrina
    The landfall of Hurricane Katrina on August 29, 2006 and its 
subsequent aftermath caused significant damage to our existing 
elementary, secondary and special educational facilities and program. 
In the early days and weeks following Katrina, students and families 
were scattered in 47 of the 50 states. Like the archdiocese as a whole, 
the focus of the Office of Catholic Schools was people and their 
immediate needs. A serious effort was initiated to contact students and 
their families and relocate all our students who had been in Catholic 
schools into appropriate educational facilities. In a few weeks after 
Katrina, over 90% of our students had been relocated in a Catholic 
school of their choice where they had settled. The remaining students 
found adequate educational resources in a public or private setting. 
Great care was taken to relocate our students and maintain contact with 
them.
    This was a special challenge as it relates to our African American 
community. In order to achieve our goals of contact and relocation, 
Catholic school officials and representatives visited various shelters 
that contained high concentrations of our displaced students. A group 
of nuns was even sent to make contact with and service student evacuees 
and their families in the Houston Astrodome. In addition, priests and 
counselors were sent to work in shelters in Louisiana, Texas, 
Mississippi, Georgia and Arkansas with those who were displaced after 
Katrina--both our students and families and anyone in need of care and 
attention. Maintaining contact with our students, parents and teachers 
was a key element in our immediate recovery plan.
III. Post-Katrina
    In response to the devastation, the Archdiocese worked diligently 
and quickly in significant ways to continue our commitment to 
education. We believe that it is in the best interest of the community 
to reopen schools BEFORE students and families returned so they would 
have a reason to return. Waiting to reopen schools does not give 
parents and families a reason or make it practical for them to come 
home and begin the long process of recovery.
    This strategy proves to be effective. To date, the archdiocese has 
reopened 83 schools in throughout all 8 civil parishes with a student 
population of over 40,000. This re-entry and repopulation of our 
schools has been a key contributor to our recovery and the recovery of 
neighborhoods and even the rejoining of families.
    Further advancements will be the result of a renewed commitment to 
bringing children and families home. We hope in the coming weeks and 
months to open even more schools and welcome ALL students who want a 
quality education in a loving, caring and challenging environment.
IV. Lessons Learned
    In reflecting on the Catholic Schools' response to Hurricane 
Katrina and the post-Katrina realities the following lessons have 
emerged:
    1. De-centralization and not over-centralization is crucial to 
manage a disaster. The ability to open schools so safely and quickly is 
the result of empowering our individual schools to draw on community 
resources and individual drive to move forward with support, oversight 
and assistance from the central school office when needed. Over-
centralization tends to paralyze initiative and give a community a 
sense of powerlessness when it comes to facing challenges. Empowerment, 
not replacement is crucial.
    2. Faith-based communities can serve the common good. In times of 
great challenges, and in fact catastrophe, the community as a whole 
needs to draw on these faith-based, mission-driven groups for their 
resources and support. These groups not only draw on their own ability 
to help provide materially but also spiritually for the whole 
community.
    3. Government can help but cannot substitute for the power of 
personal witness, charity and the will to do good.
V. Challenges and Opportunities
    The 2005 Hurricane Season has left the Archdiocese of New Orleans 
Catholic School System with a number of significant challenges.
    1. The need to maintain a significant level of ministry in light of 
severe damage and a dwindling support-base for those ministries. The 
archdiocese is facing severe economic challenges in maintaining the 
educational and social services in the economic reality of post-Katrina 
New Orleans.
    2. The need to provide quality education and attract an even higher 
quality of faculty so education can continue forward is a challenge in 
post-Katrina New Orleans. At the same time, we have the opportunity to 
strengthen the overall educational system and contribute to the common 
good.
    We can do this by forging greater partnerships between public and 
private education; these partnerships grounded in the common desire to 
serve the good of the community and a willingness to think in new ways. 
The old divisions that have too long divided us must be laid aside so 
we can move forward together. These old divisions include public and 
private, sacred and secular, and those who work for social justice and 
those who are strict individualists and isolationists. What is required 
is the ability to think and act in new and bold ways.
    There is no later or more convenient time for us to seize this 
opportunity to move forward effectively and efficiently for the common 
good of the community and putting children first. Leaders in ALL walks 
of life must come forward in order to contribute to the common good. 
With God's grace we can build toward what Dr. Martin Luther King calls, 
``the beloved community''.
    Thank you for your time and all of your efforts on behalf of 
Louisiana and the entire country.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Mr. Nelson?

STATEMENT OF JIM NELSON, SUPERINTENDENT, RICHARDSON INDEPENDENT 
                        SCHOOL DISTRICT

    Mr. Nelson. Thank you, Mr. Chairman. Good morning.
    I am honored to be here with my colleagues from Louisiana. 
I feel somewhat diminished by what they have been through. I am 
just honored and pleased that my district and districts like 
mine throughout the state of Texas have been able to pitch in 
and help a lot of the families and students that have come our 
way.
    Mr. Johnson told you a little bit about our district. We 
are a suburban-urban district sitting in Dallas County. About 
half of our kids have qualified for pre-reduced lunch. We are a 
richly diverse district with over nearly two-thirds of our 
district being of one ethnic minority or another. We speak some 
93 languages and dialects, and to be honest, I didn't know 
there were that many languages and dialects. But it is a great 
place to be.
    Beginning almost a day after Katrina hit the coast, we 
began seeing families coming our way, some of whom left even, I 
guess, before the storm arrived. And in our lack of wisdom, we 
thought that maybe before it was over with, we would see a 
hundred or so children in our district. Well, that was the 
first couple of days, and it just continued like that over the 
next 30 days. So as Mr. Johnson indicated, by probably the 
first of October or so, we had actually processed over 1,500 
kids and actually enrolled some 1,200.
    We abut against other major districts. Dallas is just to 
our south. Garland, which is a big 55,000 student district, is 
just to our east. Plano, another 50,000, 60,000, or 70,000 kids 
is just to our north. So they have a lot of opportunities in 
lots of places, but our district happens to have a lot of motel 
and hotel space and a lot of apartments that had some occupancy 
availability, and that is where a lot of these families came.
    Texas, as he indicated overall, I think at some point had 
over 40,000 of these students, and now, it is somewhere in the 
mid-30's. And much of the success we have had in assimilating 
these children and their families has been due to volunteers. 
And I would really be remiss if I didn't publicly thank them.
    In our own situation, the PTAs, the faith-based 
communities, other volunteer organizations in our community 
really stepped forward to help with things like school 
supplies, clothing, food, shelter.
    Many of these families came to us, as they certainly know, 
with very little of their possessions. They may have come in 
multiple families in one or more vehicles, or they came in 
buses and had very little. And so the community really stepped 
forward to help and try to get these children in situations 
where they could have at least some semblance of normalcy.
    I want to quickly address a couple of issues that I hope--
to inform you of one and hope you will help on the other. First 
is academics. Dr. Cowen mentioned the Orleans Parish schools as 
not being of the highest quality. Probably most of the kids 
that came to Richardson ISD--and this is probably true in my 
other school districts--came from Orleans Parish.
    We immediately gave them, especially at the elementary 
level, reading assessments. And at the secondary schools, they 
did a variety of other things and found that, for the most 
part, they were 2, 3, 4 and sometimes even more years behind 
academically.
    To say that puts stress on our system is an understatement, 
whether it is from the counseling standpoint, whether it was 
trying to bring more teachers in, more tutors, doing after 
school kinds of things, just a wide variety of things to try to 
get these youngsters a fighting chance academically has been a 
tremendous struggle.
    We found the first semester at the secondary level that 
most of these students failed most of their courses. And so we 
are having to spend an enormous amount of time and resources 
and efforts to get them where they can be successful.
    Ultimately, we believe many of these students--we still 
have nearly 800--will stay with us. We are estimating we will 
probably have over 600 come next fall, and if that is true, 
then I suspect they are probably relatively permanent residents 
at that point in time.
    And they are going to have to do the kinds of things that 
every Texas student has to do in order to graduate from high 
school. They are going to have to pass all of our exit tests. 
They are going to have to take the recommended high school 
plan, which is a rigorous college prep curriculum in order to 
get Texas diplomas, and it is going to be very, very hard to 
accomplish that.
    One of the other signs immediately that we have just seen 
in the last few days is some of the academic stress. We have 
recently got the results back from our 5th grade math 
assessment. At the state level, 81 percent of Texas 5th graders 
passed, 45 percent of the Katrina kids passed.
    In my own district, it was some 87 percent and 55 percent. 
So I think that certainly is an indicator at a very young age 
that these children are--many of them are quite far behind, and 
it is going to take a lot of effort to get them where they need 
to be.
    What I have been most impressed with from my limited 
perspective there in Richardson has been the commitment of my 
staff, of the teachers, the principals, and everybody else at 
the building level that has worked so hard to try to help these 
children succeed.
    I know our district is probably, in the metroplex at least, 
is a good example of what is gone on. In the Houston area that 
Mr. Brady presents, many of those districts had far greater 
numbers of students come into their schools, and their 
superintendents tell me that they are seeing the exact same 
thing from the standpoint of academics.
    We appreciate the resources that have been produced so far, 
but our biggest concern is that it is going to be a onetime 
thing, to be quite honest. And we certainly hope that the 
continuing needs over time will be addressed. The money has now 
flowed to the state agency, and finally, the agency is 
releasing it this week, the first payment.
    And so we can reimburse ourselves for a lot of the extra 
expenses that we have incurred over the last 6 or 8 months. And 
I really think that is more of a state issue, but I would be 
remiss if I didn't take this opportunity for a free shot. But 
in any event, we did get word we get a draw down this week, so 
hopefully.
    But even then, we were first told it was going to be $6,000 
for regular ed kids and $7,500 for special ed kids, and it is 
going to be somewhere between $3,000 and $4,000. So, you know, 
resources are an issue.
    So I will stop there. I see I am over my time but thank you 
for the opportunity. I look forward to answering any of your 
questions.
    [The prepared statement of Mr. Nelson follows:]

Prepared Statement of Jim Nelson, Superintendent of Schools, Richardson 
                      Independent School District

    Richardson Independent School District began school in August last 
summer with approximately 34,000 students on 55 campuses. We are an 
urban/suburban district comprising approximately 38.5 square miles in 
the northern part of Dallas County, Texas. Our students reside in one 
of three cities: Dallas, Richardson, or Garland. We are a richly 
diverse district with a student enrollment of approximately 35% White, 
27% African American, 30% Hispanic, and 8% Asian/Pacific Islander. 
There are some 93 languages and dialects spoken in the district. One-
half of our students qualify for free or reduced lunch.
    On August 29, Katrina struck Louisiana, Mississippi, and Alabama. 
Almost immediately we began receiving inquiries from displaced families 
about the possibility of enrolling their children in RISD schools. As 
the magnitude of the migration of people became apparent, we assigned 
our Executive Director of Student Services (who also oversees secondary 
school operations) and one of our Elementary Executive Directors to 
oversee the process of receiving these students.
    We initially estimated that we would receive 100 or so students. We 
grossly miscalculated. Over the next few weeks, we processed nearly 
1,500 students, and actually enrolled nearly 1,200. This amounted to a 
3% increase in our student population in a matter of weeks. This 
increase was the highest by percentage of any district in the Dallas-
Fort Worth area, but was significantly lower than the increases seen in 
some Houston area districts. Throughout the fall we stayed in regular 
communication with other affected districts across the state.
    These students came to our district for several reasons:
    <bullet> Recommendations from Texas friends and relatives
    <bullet> High concentration of available housing (apartments & 
hotels), along our
    <bullet> Richardson-Dallas border
    <bullet> Our cities' open arms policy welcoming the displaced 
families
    <bullet> Our district's reputation for quality education
    Our first step was to send displaced families right to our Student 
Services Department where they were counseled on how to enroll in the 
nearest school that had room for them. We didn't separate families, and 
we attempted to make the transition as easy as possible. Many children 
came with literally nothing: no extra clothes, no backpacks and 
certainly no school supplies. Our regular students, our PTAs and our 
community (in particular the faith-based community) and businesses were 
quick to respond with appropriate clothes and supplies. We tried 
extremely hard to assign students to existing classrooms, but it 
quickly became apparent that we would need some new sections at several 
of our secondary schools, and would need to open a few new classrooms 
at the elementary level. Also, it was necessary to hire certified 
teachers to assist in the elementary grades because many of the 
students were significantly behind academically. Where possible, we 
gave existing teachers support by bringing in newly hired teachers to 
work inside existing classrooms. We believed this would be far less 
disruptive to our schools than shuffling students this far into the 
semester.
    Each of the displaced students had their own stories. Some had left 
their homes early enough to have saved some of their possessions, were 
staying with friends, and thus had some semblance of normalcy. Most 
however, lost most of their belongings, were uncertain of their future, 
and were forced to live in motels and hotels for weeks on end. This put 
enormous responsibility on the school community, from teachers to 
principals to counselors.
    Secretary Spellings, an old friend from Texas, frequently told a 
story about an elementary student who came to Texas. She heard that 
story from me, so I feel I can relate it here. A kindergarten student 
from New Orleans had been with us less than a week when his entire 
class was being led to another room in the building for music, and half 
way there he ran back into his classroom. When the teacher caught up 
with him he was at his desk, pulling out his backpack and all his 
supplies.
    The teacher told him he didn't need to take his things with him, 
because they would be right back and his new backpack and papers and 
pencils would still be there. He looked up at her with tears in his 
eyes and said, ``Teacher, these days we really don't know that for 
sure, do we?'' Our counseling teams did double duty as we worked to 
assimilate these students into our group, assisting them not only with 
physical and academic needs, but with emotional needs as well.
    After the next hurricane, Rita, devastated the coast, we had a 
fairly brief influx of students from South Texas and Louisiana. Many of 
these families were housed in a shelter provided by the City of 
Richardson. This center is adjacent to one of our middle schools, which 
we opened to the families for their use. They showered in our locker 
rooms, ate in our cafeteria, and the children were able to play in our 
gymnasiums. We experienced no problems and the families were grateful 
for the shelter. Most of these families returned to their homes within 
days or weeks of the storm.
    In January, our Katrina numbers started to drop, as some residents 
returned to New Orleans. But many have chosen to make new lives in 
Texas. Last week, our count of Katrina kids was 784. We have a 
hurricane displaced student who starred in a high school musical, one 
who had a special audition to be a part of the drill team for her 
senior year, and several who played sports. Many of them have chosen to 
take the rigorous TAKS tests in order to pursue a Texas high school 
diploma. Most of the displaced students who are seniors have chosen to 
take the Louisiana exit test given online. If successful, they will 
receive a Louisiana diploma when they graduate next month. A few 
hurricane-displaced seniors actually decided to take the Texas exit 
exams (there are four) and a few were successful. They will receive 
Texas diplomas.
    As a general rule, most of the students were at an academic level 
at least two years behind our students, but most are making great 
strides in learning. Extra tutors have been brought in along with extra 
teacher aides. We are thankful that their scores on our annual 
assessment were used only as a measurement as to where they are, not as 
to how our district is faring. The preliminary results on the 3rd and 
5th grade assessments indicate anywhere from a 20 to 30 percent 
difference in the scores of our displaced students and those who were 
already here. We applaud the Department of Education and the Texas 
Education Agency for not including these students for accountability 
purposes for the 2005-2006 school year. We do have concerns that they 
may be included next year even though many will still be far behind. 
Their progress should be measured and monitored against past 
performance, but we believe additional time will be necessary before 
they can be reasonably included in the increasingly strict state and 
federal accountability systems.
    There have been obvious costs to our district and other Texas 
districts in assimilating these students. We are attaching a chart that 
shows our expense summary through April 7, 2006. We estimate that we 
have expended nearly $3 million directly related to Katrina and Rita 
displaced students. We are expecting the first of four payments from 
the federal appropriation. The money flows through the state agency 
which has finally agreed that all of these funds should go to local 
districts rather than the state. Hopefully, we will see this first 
disbursement within days. In discussions with other districts, 
especially in the Houston area, many of them have an even more 
significant financial impact. This is especially true in districts that 
were growing at a fast rate and had very little space in existing 
classrooms. They have been required to retain far more additional 
staff.
    In short, we adapted as they adapted to us. As a public school, we 
welcome any student who enters our doors, be they from another Texas 
district, from Louisiana or from a country on the other side of the 
world. Public means they are welcome and we work with each student to 
help them become individually successful. In many ways, I believe this 
was Texas public education's finest hour.

                                     RICHARDSON INDEPENDENT SCHOOL DISTRICT
                           [Katrina Expenses Summary for 2005-06 as of April 7, 2006]
----------------------------------------------------------------------------------------------------------------
                                                    TEA                  Region X                  Total
                                         -----------------------------------------------------------------------
                                           Count      Amount       Count      Amount       Count      Amount
----------------------------------------------------------------------------------------------------------------
Payroll Cost:
    Support Staff: Secretary/Clerk......      62      300,851.59  ......  ..............      62      300,851.59
    Counselor...........................      58      202,899.86  ......  ..............      58      202,899.86
    Teacher.............................     152    2,005,078.72       3       80,390.00     155    2,088,468.72
    Aides...............................       9       64,904.30  ......  ..............       9       64,904.30
                                         -----------------------------------------------------------------------
      Total Payroll.....................     281    2,576,734.47       3       80,390.00     284    2,657,124.47
                                         =======================================================================
Other Expenses:
    Transportation......................  ......       43,265.53  ......  ..............  ......       43,265.53
    Private School......................  ......       48,000.00  ......  ..............  ......       48,000.00
    Curricular material.................  ......      150,000.00  ......  ..............  ......      150,000.00
                                         -----------------------------------------------------------------------
      Total Other Expenses..............  ......      241,265.53  ......  ..............  ......      241,265.53
                                         -----------------------------------------------------------------------
      Grand Total.......................     562    2,818,000.00       6       80,390.00     568    2,898,390.00
----------------------------------------------------------------------------------------------------------------

    Chairman McKeon. I served on a school board, local school 
board for 9 years, and we had more problems with Sacramento 
than with Washington, so I am glad to see that is still----
    Mr. Nelson. It is still more fun than practicing law was.
    Chairman McKeon. Thank you.
    Dr. Chance?

  STATEMENT OF DOUGLAS CHANCE, PH.D., SUPERINTENDENT, CAMERON 
                     PARISH PUBLIC SCHOOLS

    Mr. Chance. Thank you, Mr. Chairman and members of the 
committee. It is a pleasure to be here representing Cameron 
Parish Public Schools, the emerald of the state of Louisiana 
down in the southwest corner. We border the great state of 
Texas on the west and the lovely Gulf of Mexico to our south.
    I would sort of move away from Cameron just for a moment 
and ask that you please hear Father Maestri in terms of his 
comments to you. I am not a Catholic by faith, but I would ask 
that you hear that partnership plea. It is vital. They do an 
excellent job.
    Second, I would like for you to hear Superintendent 
Nelson's comments relative to more than a 1-year funding. The 
great state of Texas took in some 45,000 students. They have 
served Louisiana students well, and they have faced challenges 
as you have heard Mr. Nelson speak.
    Again, Cameron Parish pre-Rita, pre-Katrina, we opened the 
2005-2006 school session with great excitement: three new 
principals in six of our schools. We only serve 1,850 students. 
Within days after opening, we received between 4 and 5 percent 
of our population in Katrina students.
    Unlike many other districts, our Katrina students were 
excellent. We would like to have them all back. Most of them 
say to us, ``We run from Katrina. We have run from Rita. We are 
not interested in going back to the coast.'' But we would like 
to have them back. They were great students. We also understand 
some others had some great challenges.
    I would like to share with you that Cameron is important to 
Louisiana. Cameron is important to the United States. We have 
the second largest all reserve, strategic all reserve in our 
parish. We have pipelines running from Cameron pumping energy 
all across the country. And we often say, if we turn the valves 
off, Boston gets cold in January. So education along the coast 
is critical, whether you are in St. Bernard or whether you are 
in Cameron on the southwest side of the state.
    I am going to sort of change, since you heard so much this 
morning, and share to you that there are three points that I 
think that are critical for success, whether, as the chairman 
said to you, relative to catastrophe in California with an 
earthquake or catastrophic events along the coast or the 
Atlantic seaboard.
    We were able to make 3 days after Rita destroyed 62 percent 
of our schools, damaged another 13 percent significantly, and 
caused $6.5 million worth of repair needs in the remaining two 
schools.
    We made an announcement very early on the morning of the 
27th after Rita hit on the 24th. One, we would develop a 
calendar where all students in Cameron could attend school in 
Cameron; two, that all seniors could graduate from their 
respective schools, and that is important if you are a senior. 
And third, we would retain all of our employees for the rest of 
the 2005-2006 school session. That point develops stability, 
because in almost all school districts in Louisiana, the school 
district is the larger employer or the largest employer. So 
retaining our employees gave us a base for rebuilding.
    The next point I would like to make is that what we are 
doing, we opened back 24 days after the school session. We 
opened on a platoon system starting at 7:30 in the morning 
running till 5. We were using two of the schools that remain. 
We bus from 60 miles away from two school districts over, 
because that is the closest place our people could find 
housing. We did not bus from Richardson. We did not bus from 
Houston. We did not bus from Memphis.
    As of January 2nd of this year, 82 percent of our students 
were back because of that busing and because of that platoon 
system. Again, we developed that base of stability by keeping 
all of our people employed.
    Are things working for us? Yes. The new state future 
business leader present for the state of Louisiana is from 
Cameron Parish. We have done well academically with literary 
rallies better than perhaps in years in the past, a new kind of 
energy. We do that because our people are self-reliant, they 
are hard working, and they play hard, and they are people of 
faith.
    We are excited about what 2006-2007 is going to bring. We 
will operate four schools, and this is on the concept, Mr. 
Chairman, of coming back stronger. We will consolidate two 
schools into one. We will build to the new standards. And we 
believe that we will have a better educational system post-Rita 
than we had prior to Rita because we have learned a lot.
    I would like to take a moment and go over my time and share 
seven points with you. With the entire FEMA business and all of 
that legislation--and you have done a great job with that 
legislation--we need clarity of services when a catastrophe 
strikes. We need consistency in the interpretation and the 
processing of those services. We need a long-term assignment of 
FEMA personnel or other Federal agency personnel. We need to--
and perhaps some legislation to say that the bid law from Texas 
and Louisiana, which is different, or California, be standard 
during that emergency period so that we don't have to go out 
for a 4-week advertisement for bids.
    It takes too much time when I have an emergency. I lost 
four schools, and I called Baton Rouge and talked to the 
attorney general, and said, ``I need to do this quick 
turnaround.'' He said, the emergency period is over. How could 
it possibly be over? It can't be over, but it is legally.
    So we need some attention there, and I think that has to be 
Federal legislation. The sources which have been mentioned up 
and down the table and then our FEMA deadline. We thank the 
president and the Congress for extending that with clean up and 
New Orleans with clean up in Cameron. We need that extended if 
at all possible.
    And then one of our great challenges is the time to thank 
people for the assistance they provided. We thank each of you 
who have visited. We thank President Bush for having visited. 
We thank so many people across the country, because your visits 
bring hope, your visits bring thoughts about the future.
    And in closing, we want to say thank you to our concerned 
citizens starting up in Connecticut at Lyme, Old Lyme, 
Connecticut, people up there. David Fein, superintendent and 
his group have been awesome. All the way down to Ash Grove, 
Missouri, where Brenda Ellsworth is mayor, has been wonderful. 
On across to Oregon to Coos Bay in North Bend. Those folks have 
been wonderful to us. Liberty, Tennessee in Smithville, their 
students have just been generous to our kids, and all the way 
back to the neighborhood in Anandale, Oak Hill in Oakton, 
Virginia. People have been wonderful.
    We thank Congressman Boustany, Congressman Jindal for their 
support, but we thank each of you who have visited, who have 
voted positively for aid to Katrina and to Rita victims.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Chance follows:]

Prepared Statement of Douglas L. ``Doug'' Chance, Ph.D., Superintendent 
                of Schools, Cameron Parish School Board

    The Cameron Parish School District is a small rural district 
bordering the State of Texas and the Gulf of Mexico. The parish seat is 
approximately 150 miles east of Houston, about 240 miles west of New 
Orleans, and 50 miles south of Lake Charles, Louisiana.
    The 2005-2006 school year opened on August , 2005 with an 
atmosphere of excitement resulting from new school level leadership in 
three of the six schools that served approximately 1,850 students, a 
renewed focus on academic achievement and expectations, and new 
construction and facilities restoration.
    Within a few days of the 2005-2006 school session beginning, each 
of the six schools in the district began receiving students from 
schools devastated by Hurricane Katrina. The communities of Cameron 
Parish made preparations to assist Katrina evacuees, and in the 
evenings, the school system assisted evacuees by transporting them to 
school sites for the purposes of using washing machines, dryers, 
showers, and recreational facilities.
Hurricane Rita's Destruction
    In less than a month after Hurricane Katrina devastated communities 
and school districts from New Orleans to Mobile on Monday, August 29, 
2005, the citizens of Cameron Parish began evacuating ahead of a 
Category Five storm named Hurricane Rita that was predicted to make 
landfall between Houston and Galveston, Texas.
    The storm changed course! In the early morning hours of September 
24, 2005, Hurricane Rita made landfall in Cameron Parish, Louisiana and 
Sabine Pass, Texas; however, the winds and water from Hurricane Rita 
impacted schools and communities some 200 miles to the east of Cameron 
and Sabine Pass.
    In Cameron Parish, Hurricane Rita destroyed 62% of all school 
facilities, significantly damaged another 13%, and created the need for 
repair on the remaining 25%. Rita totally destroyed three schools, a 
central office administration complex, a central warehousing facility, 
significantly damaged a fourth school, and created the need for major 
repair at the remaining two schools.
    Hurricane Rita totally destroyed Cameron Elementary, grades PK-7; 
South Cameron Elementary, grades K-7; and, South Cameron High, grades 
8-12. Johnson Bayou High School, grades K-12, was significantly 
damaged, but the buildings were left standing.
Assessment and Announcements
    In the early morning hours of September 27, 2005, only three days 
after the eyewall of Hurricane Rita began coming ashore, damages to 
school facilities were assessed.
    In the midst of the destruction to schools and supporting 
facilities, and only three days after Hurricane Rita's landfall, a 
three-point announcement regarding Cameron Parish Schools was made to 
local, state, and national media. The three point announcement stated: 
(1) A school calendar would be adopted to permit all Cameron Parish 
students to complete the 2005-2006 school year in Cameron Parish; (2) 
High school seniors would be able to graduate from their respective 
schools; and, (3) All employees would be retained for the 2005-2006 
school year, i.e., no reduction in force.
Classes Resumed Only 24 Instructional Days After Rita
    Classroom space and the cafeterias at Grand Lake High and Hackberry 
High were released for occupancy by health inspectors prior to the last 
week in October 2005; subsequently, students, parents, and school 
employees met on October 25 and 27, 2005 in order to prepare for 
classes on October 31, 2005.
    Instruction resumed only 24 teaching days after Hurricane Rita made 
landfall. A platoon system, a 7:30 AM to 5:00 PM school day, and an 
extensive busing plan with routes of 60 miles one-way were used as the 
corner stone elements in returning students to Cameron Parish. Students 
from Hackberry and Johnson Bayou attended in the restored Hackberry 
High School, and students from Cameron Elementary, South Cameron 
Elementary, South Cameron High, and Grand Lake High attended in the 
restored Grand Lake School.
Academic, Co-Curricula, and Extra-Curricula Success
    Hurricane Rita interrupted and destroyed homes, schools, churches, 
and businesses in Cameron Parish. However, students, parents, teachers, 
and school patrons are hard working, resilient, and self-reliant at 
home and at school. This true American ``can do'' spirit permeates all 
of the school district as evidenced by student successes at literary 
rally, science and social studies competitions, a newly elected State 
President of FBLA, and two of four softball teams have earned semi-
final berths in the State Softball Tournament.
    These successes have occurred even with students attending on a 
modified schedule as well as sharing classrooms, textbooks, science 
labs, computers, gyms, and practice fields.
Restoration of Schools and the Next School Year
    The Cameron Parish School Board will operate four school sites 
during the 2006-2007 school year.
    Grand Lake Students in the Grand Lake Community will attend classes 
on a regular schedule using the facilities of Grand Lake High School, 
grades K-12.
    Hackberry Students in the Hackberry Community will attend classes 
on a regular schedule using the facilities of Hackberry High School, 
grades K-12.
    Johnson Bayou Students in the Johnson Bayou Community will attend 
classes in temporary portable classrooms located at the Johnson Bayou 
School site for most of the 2006-2007 school year while the permanent 
facilities are being restored. The cafeteria is scheduled for 
completion before August 17, 2006, and work in the gym is scheduled to 
be complete by October 1, 2006. Classrooms facilities should be 
completed in March 2007.
    Cameron, Creole, and Grand Chenier Students in the Cameron, Creole, 
and Grand Chenier Communities will attend classes in temporary 
facilities located on the former South Cameron High School site in 
Creole. These facilities will provide classrooms for students enrolled 
in grades PK-12 who previously attended Cameron Elementary, South 
Cameron Elementary, and South Cameron High School.
    Construction plans for a new permanent PK-12 facility at the former 
site of South Cameron High School are being developed. New elevation, 
wind, and other construction codes will be adhered to in this new 
building, and it is being developed to serve a consolidated population 
until such time as another elementary school is needed.
Future Concepts for Johnson Bayou and South Cameron
    In order to further protect the restored and new facilities at 
Johnson Bayou and South Cameron High, a berm constructed around each of 
these facilities appears to be a plausible project. Since a project of 
this type would require more resources than the school district would 
have available, the concept will be advanced as a model project for the 
United States Corp of Engineers, FEMA, and others. A berm around each 
of these school sites would provide a sanctuary and command center on 
each side of the school district to be used before, during, and after 
another threat from the Gulf, not only for the management of the school 
district, but available to the needs of the entire parish, as well.
Challenges
    The major ``storm-related challenges'' faced by administrators in 
Cameron Parish School involve: (1) Clarity of services available; (2) 
Consistency in the interpretation of services available and ensuing 
processes and procedures; (3) The lack of long-term assignments of FEMA 
and other personnel; (4) Duration of 'Emergency Period' for receiving 
quotes in lieu of advertised bids; (5) Resources; (6) FEMA deadline of 
June 30th for reimbursement of expenses delayed by circumstances beyond 
our control, i.e., debris cleanup; and, (7) Time to express 
appreciation to the people providing assistance to the school system.
Celebrations
    Students, parents, employees, and citizens of Cameron Parish have 
many things to celebrate in the Post-Hurricane Rita environment. We 
celebrate assistance through:
    <bullet> Visits by President George W. Bush and former President 
Bush;
    <bullet> Visits by Members of the United State Senate and United 
States Congress;
    <bullet> Visits by Governor Blanco and Louisiana's Senators and 
Representatives;
    <bullet> Visits by Chairman Don Powell, FEMA staff, US Army Corp, 
and Homeland Security;
    <bullet> State Superintendent of Education Picard and Members of 
the State Board of Education;
    <bullet> Electrical restoration personnel from across the United 
States, the Alabama and
    <bullet> Other National Guard Units, and Law Enforcement Officers 
from across the country;
    <bullet> Concerned citizens, businesses, industries, and partners 
from Lyme-Old Lyme, Connecticut to Ash Grove, Missouri and from Coos 
Bay and North Bend, Oregon to Liberty, Tennessee and back to Annandale, 
Oak Hill and Oakton, Virginia; and,
    <bullet> Our students, parents, patrons, and school board members 
of Cameron Parish as well as our Congressman, the Honorable Charles 
Boustany, Jr., of Louisiana's 7th District.
    Thank you.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Ms. Voitier?

STATEMENT OF DORIS VOITIER, SUPERINTENDENT, ST. BERNARD PARISH 
                         PUBLIC SCHOOLS

    Ms. Voitier. Good morning, Mr. Chairman, members of the 
committee. I am both honored and humbled to the invitation to 
share our story with you this morning, and I surely believe 
that ours is one worth telling and one that will hopefully 
bring you to a better understanding of the struggles we face 
each and every day in rebuilding our school system from its 
devastation at the hands of Hurricane Katrina.
    I would ask that you not paint the St. Bernard Parish 
Public School system with the same broad brush with which many 
public school systems are painted today. Ours was a public 
school system that worked.
    Prior to Katrina, our students scored at or above the 
national averages on all standardized tests, and all of our 
schools achieved adequate yearly progress under NCLB. We 
enjoyed the district-wide discipline and standard dress policy 
that made our schools and learning environments safe and 
effective arenas for learning.
    Ours was the first school system in the state of Louisiana 
to have each and every one of its schools accredited by the 
Southern Association of Colleges and Schools, and we were set 
on October 16, 2005, we were prime to host a committee of 
educators from throughout the country to pursue the procedures 
district-wide accreditation. That had to be postponed because 
of the hurricane, but we are hopeful that we will be able to 
achieve that accreditation in the near future.
    And ours was a system that was known for its financial 
stability and fiscal integrity. We had, for the last 15-plus 
years, received annual audits that were without exception no 
question called, not having received during that time even one 
adjusting entry nor management letter with suggestions for 
improvement.
    We had received the procedures as--GFO, certificates for 
excellence in financial reporting. We were, by anyone's 
standard, considered a forward-moving, successful public school 
system.
    Katrina devastated our schools and our community. In fact 
St. Bernard Parish was the only parish totally destroyed by 
Katrina. Others had pockets of normalcy. Ours had none. Every 
school, every home, every church, every business in our 
community suffered massive damage from Katrina's hands. And the 
storm turned a very close-knit, hard-working, middle-class 
community of 68,000 people literally upside down.
    Prior to Katrina, our school system was the largest 
employer in our parish. It offered education at 15 school sites 
to over 8,800 students. And we were the first school system 
also in the state to offer universal 4-year-old program where 
we combine Head Start funds, the LA 4 funding, our tobacco 
settlement money, and then we put in district money for those 
students who didn't qualify economically so that there would be 
a tuition-free 4-year-old program for all out our students.
    But on August 29th, the footprint of our district would 
change for quite sometime to come and perhaps forever. Our 
buildings were damaged, many beyond repair, and our 1,200 
employees were suddenly jobless, the vast majority of them 
homeless. The devastation in terms of building an emotional 
toll on a very good decent people beyond descriptors.
    And I would like to thank and applaud our congressman, 
Charlie Melancon, for doing an outstanding job and offering 
help and ongoing support. And I would like to thank Congressman 
Miller and Scott and Tierney, Payne and Congresswoman McCollum 
for visiting and spending time in our school system learning 
and seeing firsthand what our situation is.
    The first lady came to visit. She was warm and gracious and 
offered help. And I would also like to thank Congressmen Jindal 
and Boustany for their help in securing additional funding.
    We have been the caretakers historically in our community 
for our people. Any time a storm comes, we are the entity that 
opens refuges and shelters of last resort. The Red Cross does 
nothing for us prior to or during the storm because of their 
national directive.
    Once we completed that role where we stayed there during 
the storm and helped our people, we left, we set up 
headquarters in Baton Rouge, we sent records of our students 
everywhere. We had it backed up on our computer data base, and 
we were able to pay our people.
    Within 1 week, we had gotten a computer system up and 
running with something on loan from the Unisys Corporation when 
I called the CEO from Blue Bell, Pennsylvania. So we were up 
and running 4 days after the storm hit.
    However, I won't, I guess, detail all the trials and 
tribulations that we suffered with FEMA. It was an education 
strike force set up, and they fought over us as to who was in 
control. Was it the education strike force from FEMA, or was it 
the local assistance at the parish level? We have been through 
several different project officers. It has been a nightmare 
working through that bureaucracy.
    We forged ahead without help from our state or local 
government or Federal Government, locating on our own portable 
classrooms and housing our people in trailers. We opened 11 
weeks after the storm hit on November 14th to 334 students in 
portable buildings.
    The day before Christmas, we had 640. At the start of the 
second semester, 1,500, and now we have 2,330 students back on 
one campus, over 25 percent of our enrollment. We opened 
without help, and we are hoping to get reimbursement.
    I won't go through my lengthy remarks. Let me just skip to 
basically what we are asking at this point from this committee. 
When FEMA comes down, they should have a plan in place to 
restore essential parish services as well as education and 
health. That did not occur in our parish.
    We are looking for stability also of personnel, as Dr. 
Chance mentioned. That did not occur in our parish. In terms of 
the appropriations for the community disaster loan, we have 
applied and received and are receiving those funds, but we are 
distressed with the prohibition on construction costs to use 
those particular funds.
    We are also distressed that in legislation, there is no 
mechanism to where these loans could possibly, at one point, be 
forgiven rather than paying back. And we understand that this 
is the first time in the history of this legislation that that 
has occurred, that these loans have no possibility of being 
forgiven. So we would ask that you reassess and look at that 
particular piece of legislation.
    The restart money, we are somewhat perplexed as to how we 
are going to utilize those moneys. We have been told that it 
cannot be used for the 10 percent FEMA match, nor can it 
supplant FEMA monies. So I cannot use restart monies to buy one 
piece of instructional materials or supplies. I cannot buy a 
textbook, a library book, band instruments, music or anything 
of instructional nature that we had prior to the storm with the 
restart monies, because if FEMA pays the 90 percent, I cannot 
come up with the 10 percent using these monies, and then I 
cannot tell FEMA, don't use the 90 percent on it, we will pay 
these, we will pay for it with this 100 percent, because that 
would be supplanting those funds. So I have no way of using 
these monies for instructional MNS that we had prior to the 
storm.
    And I would ask you to reevaluate that, at least for those 
severely impacted school districts whose local tax basis have 
been totally destroyed as ours was.
    We have very little sales taxes, because most businesses 
have not reopened, and our property tax base has been totally 
diminished. We have two major oil refineries in our parish. And 
we have the second largest sugar refinery in the world in 
Domino Sugar in our parish, so we feel that we are coming back, 
we are on the road to recovery. The educational system is going 
to be what spurs our students coming back into our parish.
    And let me just close by showing you four reasons why we 
are asking for your help in this recovery effort and the 
freeing up these funds to provide us more flexibility in their 
utilization.
    This is Mitch. Mitch is a 3-year-old who is in our school 
system right now. He wants to grow up to be a policeman like 
his father. Mitch begins every phrase when he talks to his 
teacher, ``Is it under the water, or can I use a crayon to 
color this picture?'' Every phrase for at least the first 6 
months started with, ``Is it under the water?"
    This young lady is Theresa. She is a 5th grade student, 
straight A student, our 5th grade student of the year. She too 
lives in a FEMA trailer, an 8-by-29 trailer, with her mother, 
her father, her sister and two golden retrievers.
    This is Craig. Craig is a 7th grade academically gifted 
student in our community. His future is limitless. It is only 
limited by his ability to dream. And we are here to see that we 
remove those limitations from him. We are here to see that this 
young man realizes his full potential. He wants to be an 
attorney when he grows up, at least at this point in his life.
    This is Brandy. Brandy is one of our 12th graders. Her 
entire year, senior year, has been destroyed by this storm. 
Brandy recently won the state individual dance competition, 
which means she is the best young dancer in Louisiana. She will 
be graduating in May and heading off to college.
    Brandy is living with relatives in a neighboring community 
so that she can remain in the area and drive into school each 
and every day, because she wants to be back in St. Bernard 
Parish and finish school with us.
    So I would respectfully ask that you help us to educate 
these young children, release some of these monies, grant us 
more flexibility.
    Thank you very much for all of your efforts to this point, 
and may God bless you for caring.
    [The prepared statement of Ms. Voitier follows:]

  Prepared Statement of Doris Voitier, Superintendent of Schools, St. 
                             Bernard Parish

    Good morning, ladies and gentlemen. I am both honored and humbled 
for the invitation to share our story with you this morning. I 
sincerely believe that ours is one worth telling and one that will 
bring you to a better understanding of the struggles we face each day 
in rebuilding our school system from its devastation at the hands of 
Hurricane Katrina.
    I would begin by asking that you not paint the St. Bernard Parish 
Public Schools with the same broad brush with which many public school 
systems are painted today. Ours was a public school system that worked. 
Prior to Katrina, our students scored at or above national averages on 
standardized tests; we enjoyed a district-wide discipline and student 
dress standard that made our schools safe and effective arenas for 
learning; ours was the first school system in the state of Louisiana to 
see each and every one of its schools accredited by the independent 
Southern Association of Colleges and Schools (SACS); and, ours was a 
system that was known for its financial stability and fiscal integrity. 
We had, for the past 15+ years, received annual audits that were 
without exception, with no questioned costs, not having received, 
during that time, even one adjusting entry or a management letter with 
recommendations for improvement over internal controls. And I must say 
that because of the efforts of the members of the St. Bernard Parish 
School Board and its administrative staff and through the support of 
the residents of St. Bernard Parish, we were a financially healthy 
district and able to survive the challenges of the past nearly eight 
months.
    Katrina devastated our school and our community. In fact, St. 
Bernard Parish was the only parish totally destroyed by the storm. All 
others had pockets of normalcy; ours had none. Every school, every 
home, every church, every business in our community suffered massive 
damage at Katrina's hands, and the storm turned a very close-knit, 
hard-working, middle class community of 68,000 literally upside down.
    Prior to Katrina, our school district offered 15 school sites to 
8,800 students in our parish. We were one of the very few in the state 
to offer our residents a universal four-year-old program and an 
additional 3-year-old component of a very popular and successful Head 
Start program.
    But on August 29th, the footprint of our district would change for 
quite some time to come and, perhaps, forever. Our school buildings 
were severely damaged--many beyond repair--and our 1200 employees were 
suddenly without jobs and the vast majority of them were homeless. The 
devastation in terms of buildings and emotional toll on very good, 
decent people is beyond descriptors. And I would like to applaud our 
congressman, Charlie Melancon, for his ongoing support, and Congressmen 
Miller, Scott, Tierney, Payne, and Congresswoman McCollum for spending 
time in our school district and learning first-hand of our trials and 
struggles. I think that they would agree that our devastation is beyond 
words.
    Nonetheless, ours is a district that has always been and remains 
focused and has always operated and continues to operate with an eye 
toward a better tomorrow. By September 1st, just four days after 
Katrina made landfall, we were opening temporary offices in Baton Rouge 
through the assistance of Louisiana State Schools Superintendent Cecil 
Picard. We were determined to stage a comeback despite our total 
destruction.
    Within one week, we were operating with a borrowed computer system 
on loan from our vendor, preparing to issue a payroll, contacting 
employees through borrowed Internet space, and providing student 
records to parents. Admittedly, we were in a state of professional and 
personal shock, but our focus was clear--the reopening of the St. 
Bernard Parish Public Schools.
    By mid-October it became obvious that first responders, refinery 
workers, and essential parish employees were returning their families 
to live with them as they began the work of dealing with the crisis in 
our community. Our promise was to be open and operational when the 
children returned. In September, we had begun discussions with the FEMA 
Educational Strike Force (the first of its kind in any disaster and the 
promised answer to a quick rebound) about the cleaning and recovery of 
our buildings and about the need for temporary housing for our school's 
essential staff. But as our discussions progressed, it became more than 
clear that we were on our own. Portable buildings for schools were, 
through the Army Corps of Engineers, a possibility in March, which was 
an unacceptable date in our minds. Cleaning the muck, debris, and marsh 
remnants from our buildings was a task that would be ours. We were told 
that the National Guard would not do that type of work and the Army 
Corps of Engineers could not respond positively to our request for 
help. But we needed to open school--and the sooner the better.
    So we forged ahead without help from the state or federal 
government, locating our own portable classrooms and housing trailers, 
securing our own national disaster clean-up team, and relying on our 
own people to salvage the very few materials that were undamaged on 
second-floor buildings, paying them with our district's own dollars, as 
we were told that the Stafford Act would not allow us to hire our own 
people. Again, had we not been financially healthy, I am not sure that 
we would yet be open.
    But open we did. On November 14th, just 11 weeks after the storm, 
we opened to 334 students, and by December we had doubled in 
enrollment. At the start of the second semester, we numbered 1500 
students, and today we are at 2330 and continuing to grow. We built it 
and they came--parents brought their children because for those 
children, our school represented hope for a normal tomorrow, and for 
our community, the returning children offered hope for the future. St. 
Bernard Parish could not die.
    To detail the struggle would take more than the brief time I have 
been allotted. However, allow me to respectfully review some thought on 
federal actions since Katrina's landfall.
    First, there needs to be, for the future, a plan in place to 
immediately restore education, health, and essential public services to 
any community in this country devastated by a disaster. The best 
projection by FEMA and the Army Corps of Engineers was 4-6 months for a 
school and 3-4 months for housing for essential personnel. We did it on 
our own in 3 1/2 weeks.
    We sincerely appreciate the efforts of Congress to provide us with 
dollars through the Community Disaster Loan; however, at the same time, 
we are dismayed--first because we cannot use these dollars for 
construction, and secondly because for the first time in the history of 
this country, the language in the legislation for those loans prohibits 
forgiveness of the loans with the possibility of their becoming grants. 
The last time I studied geography, Louisiana was still part of this 
country, and I certainly feel that our community deserves the same 
treatment as foreign countries enjoy as their schools, hospitals, and 
infrastructures are rebuilt by this federal government gratis because 
of a recognized humanitarian obligation to restore essential services.
    We are most appreciative of the dollars provided by Congress for 
the restart of our school district and for assistance in addressing the 
needs of our displaced students. However, we remain perplexed about how 
best to use these dollars. Again, we cannot use them for 
reconstruction, which will be our biggest expenditure. We are faced 
with unpredictable property and sales tax revenue at best, and how we 
will raise the 10% required FEMA match needed for our rebuilding 
program is unclear at this point in time. Additionally, guidelines tell 
us that we may not use these dollars for the required 10% FEMA match 
for instructional materials and supplies--nor may we supplant any funds 
that FEMA would provide for replacing lost items. We still await 
guidance on that issue so that we may access these dollars 
appropriately.
    We entered into a recovery mode back in September knowing that we 
would have the expertise and full force of the federal government 
behind our efforts. Now, almost eight months and many lessons in 
bureaucracy later, we have learned to stand on our own, hoping, at 
best, to be reimbursed at 90% for our efforts.
    I understand that no one--not the authors of the Stafford Act and 
not the Senators and Representatives who have no real understanding of 
what we are up against unless they, too, have experienced the 
disappearance of an entire community--no one ever imagined or predicted 
a catastrophe of this magnitude. But for four reasons, we have to do a 
better job if, God forbid, it strikes in the form of tornadoes, an 
earthquake, or another flood in your community tomorrow.
    The first reason is Mitch--Mitch is one of our three-year-olds who 
is living in a FEMA trailer and comes for our preschool program each 
day. Mitch wants to be a policeman like his dad when he grows up. This 
is Theresa. Theresa, who is a straight A student, was our 5th grade 
Student of the Year. She attends our one, unified school, and she, too 
lives in an 18' x 29' travel trailer with her mom, step-dad, sister, 
and two golden retrievers.
    This is Craig. Craig is a 7th-grader who is academically gifted. 
His potential is limited only by his ability to dream, and we are 
trying our hardest to channel his abilities in a way that will benefit 
us all in the future. And this is Brandi. Brandi will be an honor 
graduate next month and then head off to college. She recently captured 
the state individual dance championship, meaning Brandi is the best 
young dancer in Louisiana. She drives in for school each day from a 
neighboring town because she so desperately wants to be back home.
    These children deserve our best efforts. Do you have doubts about 
funding for a safer, more protected New Orleans? Do you have doubts 
about whether or not the stream of money to the Gulf Coast is 
warranted? Do you have doubts about whether or not the money will be 
used wisely and with integrity? These children should resolve all doubt 
because with or without federal assistance, they are back to school in 
St. Bernard Parish; they are thriving, and they are home. And we, 
together, must provide them a pathway back to normalcy.
    So that is where we are, and why we acknowledge that appropriate 
and timely federal assistance is our greatest need. Will we return in 
August to a school district of 15 schools and 8,800 students? More 
likely, 2 or 3 schools and 3000 students. Will we return to a community 
of 68,000? More like a community of less than 20,000. What we have been 
through we wish upon no one--ever. The pictures only tell half of the 
story. No one has yet been able to photograph a broken heart.
    We have a very, very long journey ahead of us. We began it with the 
first step--our one open and flourishing St. Bernard Unified School. We 
are now of the mindset that hard work, a can-do spirit and 
encouragement from individual people across the nation will help us 
along that journey. We are homeless and possession-less, but we are 
full of spirit. Thank you, thank you, and thank you again for anything 
that you may do. And may God bless you for caring.
                                 ______
                                 
    Chairman McKeon. Thank you very much.
    This has been very enlightening sad stories, stories of 
hope.
    Dr. Hughes, when the earthquake that I mentioned earlier 
hit Cal State University, Northridge was in my district, and 
they were devastated, and their president had just come to the 
school a couple of months before like you. And watching her 
rebuild that campus, bring in tents and set up tent cities, and 
it was just before school was supposed to start. It was amazing 
watching the rebuilding process.
    Stories of, Dr. Chance, of trying to overcome some of the 
bureaucracy and move forward is some of your recommendations. 
One of the things that they did during the earthquake is they 
had three freeways in my area that crumbled, three big freeway 
overpasses, and they eliminated a lot of the regulations and 
rules and just cut through all the bureaucracy and let them 
work 24 hours a day, let them rebuild the process without going 
through all the permitting that they normally do. And they 
ended up paying a bonus to those people and got the freeways 
back in--all three of them back into operation in less than 6 
months and did it cheaper than they would have normally done. 
And normally, it would have taken over 6 months just to do the 
permitting process. So, hopefully, we can address some of these 
concerns.
    You know, when you hear the bureaucracy that you have to go 
through--I remember a meeting we had just a day after the 
earthquake, and we had all of the FEMA people and the state 
people, the Governor all in a room and decided to do whatever 
we could to overcome that kind of stuff.
    And, I mean, the devastation wasn't anything like you 
suffered down there, but it was pretty traumatic, and they had 
just finished removing the last body out of an apartment house 
a couple of streets over, so it was pretty tough. But I know 
nothing compared to what you have gone through, but some of the 
same lessons we should learn from and not set ourselves up for 
these lessons again.
    Listening to some of the statistics, you said that about 25 
percent of your students are back.
    Mr. Nelson said that he still has about half of the 
students. You are expecting about 600 in the fall. You started 
with about 1,200 and you say those 600 now are probably going 
to be permanent. I don't know how we are going to sort through 
all of this, how it is going to be done, where the Federal 
Government is going to continue to help to take care of 
students that are no longer there and not help students that 
are somewhere else. I don't know how it is all going to be 
worked through, and that is going to take some time. But I sure 
hope that we can cut through some of the bureaucracy and just 
address the needs that are pressing right now.
    We have a lot of people here, and don't think I am going to 
even ask a question. I will turn to Mr. Miller now.
    Mr. Miller. Thank you, Mr. Chairman.
    And thank you all for your testimony. I am going to try and 
split it.
    Mr. Cowen, I am going ask you first if you might put on 
your hat as the Bring New Orleans Back Education Committee, and 
just if you could quickly run through what you think the future 
is going to happen here with K through 12, and then maybe some 
of the findings of the committee on charter schools.
    If you could do that in a couple of minutes, because I 
would like to go to Superintendent Voitier on her future there.
    Mr. Cowen. Well, out of every great disaster comes an 
opportunity, and there is an opportunity to rebuild the Orleans 
Parish school system almost from a clean piece of paper. The 
most expedient way to reopen the school system itself has been 
through charter schools itself. We currently have 25 schools 
open, 20 of those are charter schools themselves.
    And I think for the foreseeable future, we will see more 
and more charter schools reopen very, very quickly to handle 
our population. And I think the charter movement will be a 
component of the long-term vision and plan for the reopening of 
the school systems in New Orleans.
    I think the key will be, though, is can you run a large or 
medium-scale school system all with charter schools? There is 
no example in the United States where that has been done 
before. As a matter of fact, the only example or the primary 
example where there has been a large percentage of charter 
schools is in Philadelphia, where they are about 25 percent.
    So I see over the next 5 to 10 years that we will rebuild 
through the charter movement, and ultimately, they will have a 
combination of district run and charter schools itself. But the 
charter schools have proved invaluable right now.
    The plan that we developed did call for starting out with 
charter schools and then forming those charter schools into 
what we call educational networks or clusters of schools so 
that you would have 8 to 10 schools that would be clustered 
together to almost form a mini-school system within a large 
school system itself.
    This is a model that is being experimented with around the 
United States right now. The early results are very, very 
promising. And you can overcome a lot of the disadvantages of 
individual charters by creating these clusters, because they 
can have shared services, they can have sharing of best 
practices across those schools.
    So we think we have an unusual opportunity right now. I 
think we are off to a good start. We only have 12,000 students 
in our school system right now of the 68,000 that were there 
before Katrina. I think that number will go up to about 30,000 
this fall. And as I said in my testimony, I think the single 
biggest issue right now is: Will we have the physical 
facilities available to house those children when they come 
back?
    Mr. Miller. Thank you.
    Superintendent Voitier, if I might, you have successfully 
opened your school. You now have 2,500 students on campus. Can 
you describe what you think are the impediments that you are 
encountering in trying to get a second campus?
    Because, as I understood it when we visited with you, they 
were relating some of your activities in opening the first 
campus, and perhaps they weren't going to be as helpful, or you 
are going to pay some price for taking some initiative on your 
own and trying to get these other campuses open.
    I don't know if I am explaining it right, but I am sure you 
can.
    Ms. Voitier. Cash flow is a tremendous problem for us. In 
the short term, we have virtually no local tax base, as we 
talked about before. The businesses are slowly--we have no 
grocery store, no major grocery store that has opened. Post 
office just opened in a trailer at the end of February. We had 
to drive a hundred miles roundtrip just to pick up mail.
    So restaurants are not opened. We are slowly getting 
sandwich shops and those types of things. Walgreen's just 
opened the first pharmacy in our parish last month. So we are 
operating basically like a frontier town at this particular 
moment. But the importance of St. Bernard Parish is great in 
terms of the two oil refineries that are there and the sugar 
refinery. So we are coming back, and our parish people will 
come back.
    Mr. Miller. Where did you get the money for opening the 
other campuses?
    Ms. Voitier. The problem is--I am becoming blind to where 
the money is coming from, whether it is local, state or Federal 
monies. I am looking at it all as one pot. And I figure we will 
untangle it later at some point. We were a healthy school 
district prior to the storm. We were fiscally conservative, so 
I had some monies in reserve that I have used to front.
    The insurance money is very slow in coming. The schools 
that we have that had flood insurance, we have gotten those 
monies in up front. We are fighting like everyone else with our 
property wind coverage that we had over $100 million worth of 
insurance, and that has not materialized. We are in a fight 
right now into the wind versus flood issue.
    So the money--that is what we are here begging for in terms 
of the restart monies that, hopefully, Congress will provide, 
which you have, and we are very appreciative for. But some of 
our major needs in terms of resupplying instructional materials 
and supplies were being hampered because of the prohibition in 
using this 10 percent for our FEMA match.
    Mr. Miller. Essentially, we have appropriated the money, 
but you find it is not useable when you get under the 
regulations or----
    Ms. Voitier. I cannot use it for anything that I had prior 
to the storm, because the 10 percent match is prohibited, and I 
can't pay a hundred percent of the cost, because I would then 
be supplanting the FEMA monies that will come in at 90 percent. 
So I cannot find from any source our local 10 percent match.
    And I would ask that you look at maybe with the severity of 
how a district has been damaged with this prohibition of the 10 
percent. For severely damaged districts, if you could set up 
some criteria that you would allow some flexibility to use it 
as a match.
    Mr. Miller. If we could send some questions to you to 
follow up on this so that we could clarify that, I would 
appreciate it.
    Thank you.
    Chairman McKeon. Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    In my visit to just Louisiana and New Orleans and Mr. 
Boustany's district, Erath, no less, among other places, I was 
struck by the fact that it is very different. It is probably 
different at your colleges, for example. It is different 
between parishes in Louisiana. The problems in Mississippi, the 
problems in Texas, which is an absorber of students, for 
example, are very different. And sometimes it is hard for us to 
understand and follow all of this.
    And I would just, before I ask any questions, I would just 
encourage all of you, and particularly as you go back home, to 
encourage anyone down there to keep in touch with people in 
Washington, with our committee. And believe me, I can just tell 
you that I was so impressed by Mr. Boustany and Mr. Jindal and 
others--particularly Mr. Scott--who traveled all the way to 
Erath from New Orleans that day.
    You know, the members of this committee really care about 
this. I think the Department of Education has actually done a 
much better job at a governmental level than most governmental 
agencies have in handling this situation.
    But we need to know what your particular concerns are, 
because they can be vastly different 10 miles apart in terms of 
what your needs are, what regulatory issues are, whatever. 
Please feel free to stay in touch. Send letters to this 
committee, to Chairman McKeon or whatever. It is just very 
helpful for us to know so that we can continue to make the 
right decisions to try to help you, because that is really what 
we should be in this course. I would just like to make that 
pitch in general, if I could.
    We had a meeting with the presidents of the colleges, and 
while you all weren't there, you had representatives there when 
we were there. And I was struck by those differences as well, 
as I indicated earlier. And I would imagine we have here two 
colleges which are quite a bit different in terms of financial 
ability, if I had to guess.
    And I am very interested in how you are paying for your 
rebuilding, particularly, Dr Hughes, in your case. I don't know 
if you have much of an endowment or how you are handling it. 
Just from your testimony, I got the impression that your damage 
is perhaps greater than some of the other colleges even that we 
saw. And I would imagine that Tulane is probably in somewhat 
better shape, and nobody wants to give up everything they have 
either.
    So I would be interested in hearing just how you are 
handling the funding of these things, if you could give me a 
rapid answer to that.
    Ms. Hughes. Thank you so much for asking that question. It 
is not atypical for an HBCU to have a very small endowment, as 
you well know. So our endowment will not enable us to do any 
bridging regarding the building crisis that we are facing.
    We were fortunate, however, to have taken good care of our 
insurance planning, and so the insurance planning has taken us 
through the remediation, which was very expensive, because it 
took 7 or 8 months.
    We now are leaning on our insurance to assist us with the 
construction process. It will only assist us up to a certain 
stage. We worked really, really hard to get support from 
Congress and to build our funds through endowments, including 
any philanthropic support that we can get.
    We know that there is a sizable gap between all of that, 
and we are hoping that FEMA will enable us to address that.
    Mr. Castle. I have got to go sort of quickly here, but 
are--you actually have received insurance proceeds then, is 
that correct, because in many instances, people in our 
institutions have not.
    Ms. Hughes. We are actually receiving some insurance as we 
go.
    Mr. Castle. You have.
    Ms. Hughes. But what we are now beginning to see in the 
construction process is that that process is slowing down 
tremendously and will, of course, impede the pace of our 
construction and our recovery.
    Mr. Castle. Exactly.
    Ms. Hughes. So we are now trying to address the gap that is 
there between the insurance company and FEMA.
    Mr. Castle. Dr. Cowen, I assume Tulane is in a little bit 
better shape, but I am sure----
    Mr. Cowen. Well, I would like to explain a little bit the 
kind of damage that Tulane University had. We have two major 
campuses in Orleans Parish. One is downtown, and that is our 
health science center, which is our school of medicine, our 
school of public health and tropical medicine, and our 
hospital. All of our buildings downtown were under water, and 
some of those buildings have not even reopened to this day. Our 
school of medicine is still at Baylor University of Texas and 
has not returned. So we had tremendous damage downtown.
    Our hospital reopened February 14th. Only one of two 
hospitals is opened in Orleans Parish, and we could only open 
up 65 beds, because we don't have the staff to be able to staff 
that hospital. So extensive damage downtown in terms of what 
happened.
    Our uptown campus, which is where everything else is, is 
115 acres. Two-thirds of that campus was under water, and we 
had to remediate 84 buildings, which means we had to gut the 
basement and the first floor of every single one of those 
buildings in 4 months and pay for all of that without any 
insurance from FEMA, because we would not have been reopened.
    And the third part of this is that we have lost close to 
$100 million worth of research assets during this process, 
because the vast majority of our animals in the vivarium, all 
were lost during the storm itself, the specimens from our 
research. So the amount of property damage is extensive 
relative to our size.
    There is a misnomer about the use of an endowment. An 
endowment is not really a source of funds, because if you look 
at our endowment, as well as others, the vast majority of 
endowments at universities are restricted and cannot be used 
for any purpose you want. So we have a $900 million endowment 
but only $60 million of that is unrestricted. And you can only 
use it one time, because once you use it, it is gone, and it 
has other implications. So the endowment is not the source that 
you would think it is.
    And then, of course, where have we been funding this? We 
went out and borrowed $150 million in the fall. That reached 
our maximum borrowing limits, so we cannot borrow anymore. As I 
said, we have not received any money from FEMA. We have 
received some insurance money, but I suspect it will be another 
3 to 7 years before we see anymore insurance money. So between 
borrowing whatever we have been able to raise in lines of 
credit is how we have been financing our property damage.
    And, of course, each of our institutions had very severe 
operating losses. This year alone, I will have lost $180 
million worth of revenue on a $750 million budget this year 
alone.
    Mr. Castle. I realize my time is up, Mr. Chairman. I just 
wanted to say to Mr. Nelson--Dr. Chance, I didn't have a chance 
to ask you a question, but you have both made very good points 
when you said this can't be a onetime thing. My judgment is 
this is going to go on for years, and we need to keep paying 
attention to it.
    I would just like to thank Father Maestri. He was in a 
meeting that we had at Lusher Elementary School in New Orleans, 
and I was so impressed with the combined efforts of the 
Catholic schools and the public schools going into charter 
movement, everyone working together. And I just want to thank 
you for that.
    I yield back.
    Chairman McKeon. Thank you.
    Ms. McCollum?
    Ms. McCollum. Thank you, Mr. Chair.
    Well, I think it becomes pretty clear from the testimony 
and from the opportunity that I had to see things firsthand 
when I was in Louisiana when schools, whether they are public, 
private, elementary, or secondary education systems, when they 
are not reopening, a city cannot start to recover. Parents 
don't want to move away from there children. They want to be 
working in their communities, they are building their 
communities, and they want their children to access schools. 
And the higher education institutions are going to be the 
future and the life blood of how Louisiana and Mississippi come 
back.
    But Louisiana, in particularly, I know we are focusing on 
today. So I just think that the statistics that you brought 
forward about Louisiana parish about 25 of 117 schools are 
open, and without having schools opening, the work force won't 
come back, students can't come back to attend higher education. 
There is no place for--to begin the reconstruction that needs 
to happen.
    So I would like to kind of focus on repairs. And this is 
not beating up on FEMA. FEMA, we have all seen it work in our 
communities. We have floods in the Red River Valley in 
Minnesota. We have seen FEMA come in after tornados and severe 
disasters, but FEMA's never faced anything of this magnitude. 
And I think that the testimony being--that was submitted today, 
FEMA's deadline for temporary repairs ends June 30th. They have 
never in their life had anything like this to be looking at 
with such a magnitude of the numbers of institutions, homes and 
businesses that have been destroyed.
    Now, the other thing that we need to be mindful of is FEMA 
has to be gearing up for the next set of hurricanes in your 
area. And so we need a new plan in which FEMA can go back to 
getting ready for the next disaster. Unfortunately, we know 
that they will happen. And we need a plan in place to allow you 
to move forward with recovery, and that is the missing piece 
here. Where is the plan to move forward?
    So if I could maybe ask kind of the general statement. As 
you are opening schools, and as we are seeing trailers for 
housing start to come in, where has been the discussion for 
children for healthy neighborhoods? The neighborhoods that I 
saw don't allow for children to be playing safely in. There is 
no structured day care provision that is in there. And so the 
schools are going to be looked at to kind of provide some of 
that. I would think this summer there is going to be pressure 
to do that.
    So who is helping the school system address physical health 
and environmental health with the higher education institutions 
not being able to function for you to normally go to that? And 
what is moving forward for that to take place?
    And then I just want to raise another concern that I have. 
Here we saw at St. Bernard Parish good old fashioned American 
ingenuity coming into play, something we like to say that we 
are so proud of. And yet the penalization that is happening at 
St. Bernard Parish for moving forward in a quick way.
    What can you offer us to be looking at as we come up for 
the next phase, for the recovery phase, because we need to 
speed this up for you folks? And so what are some of the 
barriers that you see?
    And then if I could just make for a comment. The fact that 
loan forgiveness is not included in this legislation when tax 
basis has been totally destroyed is unbelievable to me. We need 
to revisit that.
    So I just--in a few minutes, some ideas or directions we 
should be looking at. Father, and then you, Superintendent, if 
you would please.
    Father Maestri. Thank you for your question, especially in 
terms of housing.
    The Archdiocese of New Orleans has just begun a massive 
multi-billion dollar program between private lenders, the 
archdiocese and resources, and various enterprise groups to 
formulate housing. The archdiocese operates a little over 2,000 
housing units, and we are now developing a plan going forward 
that will provide housing, both low income, middle income, 
renting, as well as buying, working with the Federal 
Government, working with state agencies, and also with private 
lenders in order to make that happen.
    We are very much committed, not only to education, and to 
the neighborhood, but also to schools, because they really go 
hand in hand together. And so this is something that the 
archdiocese is doing along with Catholic charities especially 
in providing psychological counseling and health care services, 
mental health services especially for families and children who 
are dealing with so much post-traumatic shock syndrome.
    Ms. Voitier. In the few short months since the storm, we 
have had to reevaluate our position as well. We have a 
rebuilding plan. We realize the footprint of our community is 
going to drastically change, and so will the footprint of our 
school system. We have a plan for consolidation. We know which 
schools we are going to rebuild and to what extent and how we 
are going to react to the changing housing patterns within our 
community.
    We are the ones offering a full summer program for our 
students. We had a 21st century grant that I am reapplying to 
the summer. I am looking at Title I monies, as well as any 
monies that I can scrounge from private foundations. So we are 
going to be charged with the task of providing educational, 
recreational services.
    We have partnered with LSU School of Health and Allied 
Sciences to offer services for our students who are 
experiencing emotional problems.
    What we really see is a tremendous need, if we are looking 
at the upcoming hurricane season, is not a repeat of what has 
happened to us in our community.
    FEMA needs to have a plan, just as we have developed a plan 
for how we are going to proceed. There has got to be a plan in 
place that when they hit the ground that they have access to 
resources, that they can bring in portable classrooms 
immediately, that they can provide short-term health services 
and some essential city services immediately. We were told it 
would be 6 months, March, before they could put a portable 
classroom building school together for us. We did it in 3 1/2 
weeks.
    From mid-October to November 14, we put a school together 
locally. But the corps of engineers in FEMA could not do it, 
they told us, before March. So whatever their rules and 
regulations are that prohibit them from getting those services 
immediately to us, it has to be changed.
    They should have contracts ready. They should have 
buildings ready to come in immediately and then step back and 
look to see how we can progress in maybe a more businesslike 
manner.
    When we have to put a school together--you know, Doug 
mentioned over here the bid laws. Well, we have got to take 
real hard look at that. We have got to be wise stewards of the 
public money. But when there is no electricity, roads are 
almost impassable, where are you going to advertise for a month 
and get contractors to come in and walk your sites and do 
business?
    You know, there has to be a provision for emergency 
services to proceed immediately. And that really has to come 
from the agency from our Federal Government who should be 
coming in with those resources, because the local agency at 
that point has been totally wiped out. So that is what we are 
looking for.
    Ms. Hughes. Senator McCollum, you have raised some very 
fundamental questions for us to think about in terms of longer-
term planning. The recovery of New Orleans is very uneven 
depending on where you are. I am in the lower district, and of 
course, you know what the community is like in that district.
    And so I view Dillard's responsibility as one of 
fundamentally moving and trying to give assistance to community 
recovery in whatever way it can. And so we have done some of 
that by inviting students from all over the country to come in 
during spring break, and they have been very resourceful and 
very active.
    But our students also are very concerned about what they 
can do to assist the community to recover, because absent the 
community, even if the university were perfect, there is not a 
quality of life that is needed.
    The university can provide some assistance with child care, 
for example, through the college of education, but it cannot 
provide all of it. So what your statement raises for me is the 
need for us to think about a really holistic approach using 
education as a catalyst to engage with the community and to 
search for ways to become partners in the recovery. I think 
that is going to be very, very essential for us.
    Mr. Cowen. We are in the proverbial Catch-22 in New Orleans 
because of the interrelationship between our feelings about the 
safety of the levees, housing and neighborhoods, and education. 
And this is, of course, this triangle is making the education 
one even more difficult than it otherwise would be. Because as 
we try to reopen schools in Orleans Parish, we have to decide 
where to open those schools, for which children, at what grade 
level, and who will teach them.
    And we also have at Orleans Parish that 102 of the 117 
schools are controlled by the Louisiana Department of 
Education. The others are with the Orleans Parish school board.
    And I have to give credit to both organizations. They are 
working very effectively and very hard to deal with an 
unbelievably complex situation down there.
    One of the things that does seem to be working in Orleans 
Parish is this charter movement. And as an example, Tulane 
University has a charter school itself that we charter K 
through 12. And we work with every element of that school from 
helping house faculty to helping them with their shared 
services, to helping them fix their buildings. And there are 
many others in Orleans Parish that are doing the same thing 
with charter schools.
    It is probably not the most efficient and effective way, 
but it clearly is the most expedient way right now to get these 
schools reopened.
    Mr. Boustany [presiding]. Before we move on, I would like 
to remind the members that we may have votes around 12:30, so 
let us try to keep to the 5-minute rule.
    Ms. Biggert, you are recognized for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    It has been very moving, and I just can't imagine, you 
know, the problems that you have, but I think you are also 
positive and bring such hope for the future down there. 
Appreciate it. Just a couple of questions.
    Mr. Nelson, you mentioned in your testimony that you are 
projecting about 600 students that will remain in your schools 
permanently. I just have a question about the NCLB and the 
testing. Do you think that that will be a large enough number 
that will affect the test in your school?
    And how do you recommend in the testing to--of these 
students how would you plan to monitor and bring them along to 
the level of your--you have given some things, but are all 
those children participating in that?
    Mr. Nelson. Thank you. That is an excellent question.
    First of all, the 600 is at best an educated guess. That is 
kind of the number we have been working off of, but I think 
until August gets here and school starts, we really won't know 
for sure. But the fact that over the last few weeks, the number 
has stayed very stable--in fact, we have more children last 
week than we did the week before.
    So I don't know whether some of our--they move around among 
apartments and that sort of thing, and I assume that is the 
difference, but it has been very stable in the high 700's for 
several weeks now, so you know, I am guessing, but I am 
guessing 600 or so.
    Both the state and the department made a very wise decision 
to not include these students in the two--both either our state 
accountability system, which is quite rigorous, or the AYP NCLB 
system for this year. We have--we are treating these kids as a 
sub-population. So we will know where they were--you know, day 
one and so along the time.
    And it is my hope because of the day that we are getting 
out of that that I related to you on the math scores, for 
example, that both our state agency and the department will 
take a very common sense approach to addressing AYP and the 
state accountability. Otherwise, I think we are going to have 
some schools that are doing masterful jobs with children that 
come with significant academic deficits get punished, and I 
don't think anybody wants that to happen.
    I think they need to--my recommendation is they look at a 
growth model, even though we don't use that in Texas, for these 
children at least for the short term. And as long as they are 
making academic progress that a school not be held not to meet 
AYP because of them. But there are enough of them, clearly, in 
my district. And in the Houston area, there has probably going 
to be far higher percentage state that they would have a 
significant impact from an accountability standpoint.
    On that test I mentioned a moment ago, both at the state 
level and at the local level, they make a 1 percentage point 
just so that in my district, the limited number make a 1 
percentage point difference on the total in terms of the 
passing rate. And they do the same for the state as well. So it 
is going to take time.
    We are seeing some progress among a lot of these kids, and 
I hope they do stay. I think they are stable, they are good 
kids. The only complaint we have had that I told Dr. Chance is 
that our cafeteria food doesn't have enough spice in it. But 
they are great kids and great families, and we have enjoyed 
having them. But they--especially the ones from Orleans Parish 
do come with significant academic deficits.
    Mrs. Biggert. So it sounds like you are seeing them 
assimilate in the families assimilate into the school system. 
Are they participating?
    Mr. Nelson. For the most part, that is true. In fact, you 
go into classrooms, and teachers now have a hard time telling 
you which kids are Katrina kids, because they have just kind of 
become assimilated. I mean, we don't make them wear signs or 
anything, but--that they are from New Orleans. But--and so I 
couldn't tell you as I go around which ones are which. I mean, 
obviously, we have them coded, because we did that for obvious 
reasons at the beginning. But they have, for the most part, 
blended in and become part of our culture and fabric of our 
district.
    Mrs. Biggert. Thank you.
    And then, Dr. Cowen, I understand that right after Katrina 
that you--well, the school, you sent the students to other 
schools. In other words, you made sure that they were enrolled 
in other universities, other colleges after the hurricane?
    Mr. Cowen. Yes. Shortly after the hurricane itself, we were 
able to arrange an agreement with virtually all the colleges 
and universities around the country to take the students from 
the Gulf Coast institutions, not just Tulane--all of our 
institutions. And we asked them to take them for one semester 
as visitors, and please return them back to our institutions.
    And I have to say, if I look at one community in America 
that really has helped higher education, it has been the higher 
education community, so the Department of Education and the 
other colleges and universities.
    In Tulane's case alone, our students went to 594 colleges 
and universities around the country in the fall.
    Mrs. Biggert. I congratulate you on that. Are they coming 
back, I guess, now? Are your applications up?
    Mr. Cowen. Well, it is interesting. We had a very--we had a 
phenomenal return rate of 88 percent of our full-time students, 
which was much higher than we predicted. And our applications 
for our undergraduate program are actually up 15 percent. We 
have 21,000 applications for 1,400 positions. But as I 
testified today, I cannot tell you whether we will get that 
class of 1,400.
    You may ask, given that size of that applicant pool, but 
our students come from all over the United States, and we are 
having to combat with their parents the perception of what is 
going on in New Orleans. And the students that get accepted at 
Tulane University are getting accepted at the Ivy League 
schools in Vanderbilt and Emory. And fighting against that 
perception of New Orleans is a challenge unlike anything we 
have ever had before, and we are all realizing that same 
challenge.
    Mrs. Biggert. Dr. Hughes?
    Ms. Hughes. I would simply like to add that the education 
community, I think, was very generous. In many instances, they 
exempt our students from any tuition and gave them very special 
privileges. My students were located all over the country, and 
a few were even internationally located. So we encourage that, 
because we wanted educational continuity.
    We expected that since we couldn't return to our campus, we 
wouldn't attract a fourth of our students. However, we did 
attract 50 percent, about 51 percent back in spite of that. And 
we are hoping, also, that in the fall that we will be able to 
reattract a number of students. But the issue raised sooner 
about the communities and community service are really critical 
issues for us in our area.
    Mrs. Biggert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Boustany. Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, on behalf of the ranking member, I would like 
to ask unanimous consent that we hold the record open to allow 
for members to ask additional questions, and also to have the 
gentlemen from New Jersey, Mr. Holt's, statement inserted into 
the record.
    Mr. Boustany. Without objection.
    Mr. Scott. Thank you.
    And, Mr. Chairman, I want to thank you for your 
hospitality, as well as Mr. Jefferson and the others from the 
Louisiana delegation. I was there for several days and met with 
most of the panel, as a matter of fact. We have a lot of work 
to do, and I hope we can accomplish it.
    Dr. Cowen, I just want to empathize the point on economic 
impact on economic development. You indicated that the 
reopening of Tulane caused the population to rise in that area. 
Did it have any effect on businesses in the area?
    Mr. Cowen. Absolutely. As a matter of fact, many of the 
businesses in the areas in which we operate pegged their 
reopening until we opened, because without us opening up, there 
were no students, there were no faculty, no staff, so it had a 
tremendous impact on just small businesses, retailers 
primarily, and others reopening.
    Mr. Scott. And what impact does it have on the community in 
terms of health care?
    Mr. Cowen. Well, Tulane University is one of the largest 
health care providers down there, and this is one of our very 
significant problems right now, if I could say a few words 
about it.
    As I mentioned, there are only three hospitals opened up 
right now in the parish. Tulane Hospital is one of them, and we 
only have 60 beds opened up to the 250-bed hospital downtown. 
And the reason we don't have more beds opened is because, quite 
honestly, we don't have the technicians and the nurses we need 
to open up more. But the vast majority of the patients we are 
even getting in that hospital are indigent care patients.
    So we are already having financial problems. Now it gets 
exacerbated. What is also causing a problem is our residents. 
We have 550 residents. Those 550 residents are spread all over 
the United States. We are not getting reimbursement for those 
residents from those hospitals, because we have yet to get 
exemptions from DHSS--CMS on those exemptions.
    So what is happening is we are reopening, but the more we 
reopen our health care, the more money we are actually losing, 
because we are subsidizing other agencies, both state and 
Federal, that would normally be paying for those services. And 
we have a tremendous crises of care for the indigent in New 
Orleans right now.
    Mr. Scott. Thank you. Now, if we appropriated money for 
higher education for New Orleans, some might think that we 
would spend half our time arguing about who would get what. 
What have you done to deal with that question?
    Mr. Cowen. Well, we actually had an unprecedented 
arrangement occur in higher education. There has been money, as 
you know, some money appropriated. The state of Louisiana got 
$95 million that was given to post-secondary education 
primarily for those institutions that were closed 30 days or 
more. What we did is we got the chancellors and presidents of 
the 14 institutions together. Understanding we have everything 
from HBCUs to major research universities public and private, 
and the 14 of us agreed in an objective way to allocate that 
money among the institutions based on some real criteria.
    This is unprecedented, because I don't think anybody ever 
thought we would be able to sit down and agree amongst 
ourselves, but we did agree. And the $95 million, when we 
eventually received it--we have not received it yet--will be 
allocated primarily the way the colleges and the chancellors 
decided to do it.
    Ms. Hughes. May I just add that Katrina really did bring 
some good fortune to us. We have formed, for the first time, 
for example, a consortium, and Scott has really invited us to 
be a part of that consortium. Loyola and Xavier are a part of 
that consortium.
    So what we see now is that Katrina has enabled us to 
understand that we can cross boundaries that before seemed to 
divide us. And we are really seriously building partnerships 
sitting around that table, making decisions about the $95 
million was very reassuring for me, because we had already 
built that kind of consortium.
    Mr. Scott. Thank you.
    Ms. Voitier, where are your employees housed when these 
schools that are open?
    Ms. Voitier. We had to go out and purchase travel trailers 
on our own to house our staff. So we initially bought 82 travel 
trailers. I have got them in the parking lots of some of our 
schools that are not in operation at the moment. That is 
primarily where our faculty and staff are housed. If they were 
lucky enough in surrounding areas to move in with relatives or 
find a place to rent, they have done so, and they are driving 
in from surrounding areas as well.
    Mr. Scott. My time is almost up. I wanted to ask one other 
question, and that is, in the construction you mentioned the 
problem of how you can replace certain equipment, and they 
would only--if you have a 12-year-old air-conditioning unit, 
can you tell the committee what problems occur as you try to 
rebuild?
    Ms. Voitier. When we were looking at restoring a permanent 
building for our students, Chalmette High School, which is our 
main high school in the parish, walked the building with FEMA 
representatives as we were trying to develop a project 
worksheet. And his statement to me was, we can only bring you 
back to pre-Katrina conditions. That is all we are allowed 
under the Stafford Act.
    We were looking at the chiller and boiler systems. Our 
chiller system in that school was 12 years old. So his 
statement to me was, we can only pay 90 percent of the cost, 
replacing it with a 12-year-old chiller system. I said, well, 
where am I going to find a 12-year-old chiller system? And he 
said, well, I am a mechanical engineer, and I can get you one 
tomorrow.
    I said, well, wait. That was the wrong question. I said, 
the real question is: Why would I put a 12-year-old chiller 
system in a school that we need to rebuild? And he said, well, 
ma'am, I am really sorry, but that is all I can do. My hands 
are tied. The cost above 90 percent of what it would be to 
replace the 12-year-old chiller system, you will have to bear 
that entire cost.
    So we are trying to work around that in very creative ways.
    Mr. Boustany. Mr. Brady, 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    First, I want to thank Chairman McKeon and the committee 
for allowing me to sit in today.
    And, Chairman Boustany, thank you for your continued 
persistence and leadership as we try to resolve funding issues 
related to western Louisiana and east Texas as we deal with 
both the aftermath of Katrina and Rita.
    I appreciate the committee too. This committee was the 
first to recognize the important role the schools played in our 
Katrina families. I know in the shelters we have in Texas, the 
day that the schools started to enroll students, the attitude 
in the shelters changed dramatically, provide a normalcy and a 
routine at a time when we desperately needed it. And this 
committee was the first to take a lead role in assisting the 
Congress reimburse schools for doing the right thing. And that 
is what I want to ask about today.
    I know that, you know, 49 states opened their schools and 
classrooms to Katrina students in Texas and east Texas, 
especially. Our unique challenge has been as a neighboring 
county to Louisiana, we took in about 400,000 or more Katrina 
folks, about 40,000 students. Many of our schools were the 
shelters for them. And, in fact, that was the first challenge 
we had.
    Second challenge was, in Hurricane Rita, that caused the 
largest evacuation--not in American history but world history--
2.7 million people who streamed out of the Gulf Coast, ran out 
of fuel and food, and we reopened the shelters, many of them in 
schools, to help them.
    And then our third hit in east Texas and in west Louisiana 
was Hurricane Rita itself, which, while Katrina was the sixth 
largest hurricane in Gulf Coast history, Hurricane Rita that 
followed was the fourth largest hurricane in Gulf Coast 
history, damaged or destroyed more than 75,000 homes. And we 
find ourselves in schools were knocked off for as much as 3 
weeks out of the grid as well. And so we face some unique 
challenges.
    My biggest concern today is that we are not funding schools 
adequately for the Katrina students that they are hosting 
today. Even though this committee authorized the higher number 
and Congress authorized a higher number, we have funded only 
about $4,000 per student for our Katrina kids. And that is not 
nearly enough, especially given the fact that we want to bring 
these kids up to grade level just as quickly as possible. And 
we have not given much thought to how we will help fund these 
kids for next year, because many school districts operate, not 
principally with state money, but like in Texas, two-thirds of 
it is local money. And there isn't much there to do that.
    And so my question to Mr. Nelson, who is a former TEA 
commissioner of education, school board member, school 
superintendent, in Texas in your school district, is $4,000 
enough to reimburse you to educate our Katrina kids?
    Mr. Nelson. No.
    Mr. Brady. Is it anywhere close?
    Mr. Nelson. You know, it is really difficult because of the 
academic issues, Mr. Brady, that I discussed both in my remarks 
and in response to a question. I think it is unlikely that it 
is going to be close. And I think every district, as you well 
know, in Texas is somewhat different. My district happens to be 
one of the property wealthy districts, even though we have a 
large number of poor children, which gives us some advantages, 
clearly, in trying to address their needs.
    There are a lot of districts that are much closer to where 
you represent that are not property wealthy, that are also 
growing at a rapid rate, and they are going to have enormous 
difficulties meeting the needs of these Katrina students' 
academic concerns both confronting their own growth at the same 
time they try to do all the extra things that are going to be 
necessary to get these kids to where they have to be to meet 
both state standards and Federal standards. And I have not 
talked to a single superintendent who doesn't want to do that, 
isn't committed to doing that. But it is going to be very, very 
hard when you are looking at a onetime resource like this.
    We have already accounted for--in my district's case, I 
think we are going to--we figure it is just under $4,000 per 
student. It is going to come to a little over $3 million. We 
have already expended that. I mean, we are going to basically--
repaying ourselves for money already spent. And so to think, 
you know, what are you going to do next year and the year after 
in terms of trying to meet these students' needs, it is very 
difficult, you know. But in our case, we have to do it out of 
reserves or ask that the local taxpayers, assuming we get more 
taxing authority in the current special session going on in 
Austin, to address it that way. You know, I don't know.
    But, you know, short answer, no, I do not believe it is 
sufficient, and so anything that Congress can do in terms of 
further appropriations is certainly going to be helpful.
    Mr. Brady. I think Congress that has authorized $6,000 per 
student, which really doesn't meet some of the special needs.
    Mr. Nelson. It is $7,500 for special-ed children, the 
authorization was.
    Mr. Brady. And the president recently announced he was in 
support of the Congress paying the full $6,000 for this student 
year, school year, which is almost over, by the way. And then 
congressmen have to grapple with how we help fund monies for 
next year.
    And the question I want to ask I will submit in writing to 
you is, you know, what are you doing to help bring these kids 
up to grade level? Because I know in reading, some of the 
reading scores showed about one-third of 5th graders from the 
New Orleans Parish were reading at grade level, 5th grade. Two-
thirds are already behind, can't read at grade level. You just 
can't let kids--you know, every school year is important to 
these kids, and you just can't--you got to bring them up to 
speed. It takes time, effort and resources. And I will submit 
that to you in writing, Mr. Nelson.
    Again, to the committee, to Mr. Jefferson, to all those all 
who work on behalf of Katrina students, thanks for your 
support.
    Mr. Boustany. I would also add that this committee is 
working and continuing to work with the Department of Education 
to maximize flexibility and how money is used. So I wanted to 
offer that assurance.
    At this time, Ms. Woolsey is recognized for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I want to particularly thank you, Superintendent Voitier, 
for your principled stand and all of you for pointing out to us 
what you are doing, you are doing with your hands tied by 
bureaucratic red tape and rigidity. But you know what? In spite 
of it, you are doing what needs to be done for the kids. And I 
think if you wanted to say one had a slogan up there on the 
witness stand, you would say it is the kids, stupid, but you 
wouldn't call us stupid, because that wouldn't work. So we can 
say it is the kids, exclamation mark.
    So with the kids in mind, what would be your--I would like 
to start with you, Superintendent. What would be your three 
priorities that you would have asked of FEMA? And then go down 
the witnesses, and if you have different priorities or want to 
add to it, you know, that would be good, that you would have 
asked from FEMA during this disaster that didn't occur--what 
the disaster did but that FEMA didn't do what they are supposed 
to do.
    Ms. Voitier. The first thing we needed was some immediate 
fidelity and space, and to untie our hands from the 
bureaucratic--declare the emergency, either supply us with what 
we needed immediately or allow us to get it ourselves.
    We talked about the building situation. They couldn't do it 
for several months. We located portable buildings in Georgia 
and in Carolina. We got them down there. We got local 
contractors, and we put a school together in 3 1/2 weeks.
    We couldn't feed our children hot lunches because there was 
no gas. We had to--we cooked offsite and hauled food every day 
for 2 months, hot food. FEMA wanted me to feed them MREs and 
sandwiches, and I refused. And they would not help us in 
feeding our children.
    So what I am looking--the first thing I would look for from 
a very short-term immediacy, get us space and help us to 
provide basic services to children.
    Then, as these things are freed up and monies are 
appropriated, please give us the flexibility of spending those 
funds and judge us by the outcome. We are not afraid of 
accountability in any fashion whatsoever.
    Mr. Nelson, I hope you get some of our kids, because they 
are going to help your scores not hurt your scores, our Katrina 
kids.
    So we are a school district, as I said before, public 
school district that works. You know, our children did 
extremely well. We are known for our fiscal integrity and the 
way we handle money. Allow us to do that in a prudent manner 
and judge us on the outcome. So please, immediacy of help, 
flexibility in funds, and recognize that if--thirdly, if there 
is a severely impacted community as we were, cash-flow is 
vital.
    There has got to be--and I think Congressman Miller 
mentioned it a little bit earlier--some advance funding with 
the accountability tied to it, because we don't always have the 
amount of money we need to get started on the front end. 
Insurance isn't going to do it. No other funding source is 
available, and the local tax base in our situation is 
destroyed, so some immediacy of cash-flow as well.
    Ms. Woolsey. Dr. Chance?
    Mr. Chance. Thank you, Congressman, and I appreciate your 
thoughts relative to focusing on children.
    I think, in terms of bringing back the business, the FEMA 
effort and other support networks from the Federal level, but 
when you start focusing on children, things have to occur 
differently whether you are talking about restaurant facilities 
or cafeterias. And that unit is critical, I think, in that 
thought process.
    Within the legislation, I know, support and recommend that 
we have good governance and accountability of the utilization 
of those funds. I think in a catastrophe, whether it is an 
earthquake in California or another storm in the Carolinas, 
that FEMA needs to be authorized to assess rapidly as we did in 
Cameron. We knew we lost Cameron High School. We had it insured 
at about $9 million, what it was worth. To rebuild it to 
standards will run about $16 million to $17 million. To start 
that effort, we need to be able to start growing down that 
money.
    I am fully insured. I have the tax base to raise that set 
of funds, but under the guidelines, if we could start growing 
down immediately, then I don't have to worry about that--
passing that rate to do it. The reimbursement process needs 
some work in that area. And I think overall stability, the 
ability to draw in funds, stability of the FEMA personnel. I am 
not sure how many teams Doris has been through, but I have been 
through several.
    The local level that we work with, we have worked with four 
gentlemen from FEMA and the corps that have been exemplary. 
They have been awesome, and I would use their names, but they 
have asked me not to. They have been marvelous, and they are a 
credit to all Federal agencies.
    But the second layer up in terms of getting approval of 
their recommendation needs tremendous work. Thank you.
    Ms. Woolsey. We have run out of time, so I would appreciate 
very much if you have other ideas if you could add them in 
writing. Thank you.
    Thank you.
    Mr. Boustany. Mr. Payne, 5 minutes.
    Mr. Payne. Thank you very much.
    And let me commend all of you for the outstanding work that 
you have done. Many of us on this committee are former 
educators. It was my first career and, actually, I think one 
that I enjoyed the most, actually. In a difficult inner city in 
Newark, New Jersey, awful lot of poverty, a lot of abject 
poverty and problems. And so I can really emulate and feel the 
situation in New Orleans.
    Let me also say it is very good to see Superintendent 
Voitier again. We had an opportunity to--I was one of the 
persons, as you may recall, that visited your St. Bernard 
Parish and really was struck by the visit and going up to the 
second level and pointing out to us where the water was and 
conditions of people who needed oxygen. And there was, you 
know, no generators to keep things working.
    And I just want to commend you for the take-charge attitude 
that you did. I mean, that is really regardless of what region 
of the country we are in, we, as Americans really step up to 
the plate when the chips are against us. And I really commend 
you for what you have done.
    And the others of you, I just haven't had the privilege to 
visit there.
    I was going to ask you about the Leave No Child Behind, but 
I heard you mention briefly about the fact that your students 
were doing all right. But do you feel that had the Federal 
Government--will give you any leeway or any of the districts, 
or are you not asking for it, or what happens to the 
youngsters, because as we know, this testing is very important 
to the strong supporters of Leave No Child Behind. Are you 
given any kind of leeway?
    Ms. Voitier. With the standard accountability system, there 
are going to be some modifications for us in the short term. 
Prior to the storm all of our schools met adequate yearly 
progress, and as I mentioned before, we scored at or above the 
national average on standardized tests.
    But we have to also recognize the fact that our students, 
the ones who have come back to us, as well as the ones who are 
displaced, they have been in two, three, four, five different 
schools this year as their families have had to move around. 
Their educational progress has really been impeded this year. 
They are very, very bright young people, and I know that they 
will make that up. But we possibly would need some type of a 
waiver this year, but I really feel that our kids are going to 
do well.
    I think we are dealing with a lot of emotional issues as 
well with our students, and that further impedes their 
progress. So when you look at children, you have got to look 
from a very holistic point of view. Education is one thing; the 
way they feel about their safety is another major concern.
    Our kids now are living in trailers and tents, and when 
this hurricane season comes this year, we have a strong wind, 
or we have threat, you know, our people are going to have to 
leave again. And we have hundreds if not thousands of trailers 
in our community which will pose a very serious threat. So our 
families are now living under that cloud at the moment.
    And our kids may not be quite as focused on education this 
year as they could have been.
    Mr. Payne. Also, what is the longest distance or amount of 
time that any of your older students who can drive, how long 
does it take the furthest person to get there?
    Ms. Voitier. Well, if they live in the parish, you know, we 
are picking them up on school buses that we have leased, 
because we had a fleet of 70 school buses, and when we evacuate 
citizens from our community, we did it through our school 
buses. And those are the only ones we saved. We lost most of 
our fleet.
    But we also have youngsters who are living in the 
surrounding parishes who were driving in, because they wished 
to come back to us. We have some coming as far as Baton Rouge, 
which is 90 miles away one way. And they are making that trip 
in because they want to be back in their school.
    Mr. Payne. I remember you saying that at our meeting there, 
and I just wanted it to be reflected on the record.
    Just finally about your employees. You know, teachers' 
salaries are becoming more adequate, a lot better than when I 
was teaching. It wasn't the reason they left, though. I just 
happened to get elected.
    But how about some of the lower-paid employees? You know, I 
had the opportunity to sit with your food service workers, for 
example, you know. How are they making it? Many of them are, of 
course, their salaries are much lower. Many have to come long 
distances. Their salary remains the same. How are they making 
it?
    Ms. Voitier. It is very difficult all around at this point. 
Like I had mentioned before, it is almost a frontier town 
mentality. But we are all banding together. When they are 
coming long distances, we all know what is happening with the 
price of gasoline now, and that is further hurting us in the 
process of getting our teacher and our workers back. Those who 
have come back, if they are in St. Bernard Parish--remember, 
they are living in trailers, travel trailers as well as am I, 
in the parking lot of our school board administration building 
and in the parking lots of other school buildings that we have. 
It is a difficult situation.
    Mr. Payne. Real quick. I know my time is up, but I just 
want to commend you for the great job that you have done.
    And just ask Dr. Hughes, will Dillard be able to get back 
on its feet, in your opinion? I had the opportunity to go to 
southern on our trip, and we saw the temporary housing and 
temporary facilities. And I know it must have been a struggle 
for southern to be able to convince the state of Louisiana that 
they should have all that put back there. But how about 
Dillard? How do you stand in a nutshell?
    Ms. Hughes. Dillard University is engaged now in a massive, 
massive reconstruction project. That will have to be 
incremental. So we anticipate that in the fall, we will have 
some classroom space and some residential facilities so that 
our students can return and our faculty can teach.
    A big problem we have now relates to residential facilities 
for students, faculty and staff. Many of our faculty who are 
teaching leave classes and go to the Gentille area and began 
reconstructing their homes. Many of our students lost homes 
through their families as well. And so we have got to identify 
some alternative residential space while we are reconstructing 
the campus.
    Reconstruction of the full campus will take time and will 
take resources. But we plan to get back on campus in the fall, 
as I indicated, and in the process, we will continue to 
participate in that consortium that you heard me reference as a 
way of supplementing our needs.
    We know that the needs are vast. I am not backing off on 
assuring that Dillard is going to return and that it will 
return as quickly as possible with the kind of strength perhaps 
that it has never had before. That is my commitment.
    Mr. Payne. Well, let me thank all of you for the great job 
that you have all done. And the most difficult thing for me was 
when I returned home--and I was in the ninth ward, is it, a 
devastated ward. The most difficult thing was I couldn't 
explain to people what I saw. I mean, people were just 
dumbfounded. I mean, I didn't know where to start. It is just--
it was just--none of us have ever seen anything like that 
before. And I just saw a person several days ago who just came 
back and indicated to me, and you know, was the same thing with 
him. He said, I can't even explain to people how it is.
    So our prayers are with you, and hopefully, the money will 
follow too.
    Thank you.
    Mr. Boustany. At this time, I am pleased to recognize a 
member who is not part of this committee, but also certainly 
very concerned about what is happening in Louisiana, my 
colleague from Louisiana, Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman.
    I want to thank Mr. Boustany and Mr. Jindal who serve on 
this committee for the work they have done for the people of 
our area.
    I want to thank this committee for the attention it is 
paying today to this very, very vital part of our recovery. I 
want to thank those members who took the time and who are going 
to take the time to travel to our area to do what Mr. Payne has 
just described to see with their own eyes what is happening 
there and to try and come back and try and relate to the rest 
of the members what they have seen and to become advocates for 
us in this whole process.
    When you get to the point where I am now where you have to 
enter the questioning period, almost everything that can be 
asked has been asked, but I want to just focus on three things, 
and I will ask them altogether and ask you to make some 
response.
    Dr. Cowen and Dr. Hughes have talked about the difficulties 
of recruiting and retaining faculty and students for the 
upcoming year. And I want to know whether there are any 
specific incentives you think might be in order for the 
Congress to undertake to have a better chance to attract 
students, whether it means incentivising student tuition or 
some incentives for that or for faculty pay or for research or 
some other ways to think of some--if there are suggestions. You 
may not have them all today at the tip of your tongues, but 
perhaps you can provide us with that.
    The second is with respect to the public schools, and I 
suppose also, but to a lesser extent, the sectarian school, the 
Catholic school. There is a great deal of concern you have 
already expressed about red tape and unreality connected to our 
FEMA's evaluating things and trying to make things whole.
    But one of the things which we don't--we can't find any 
language for it under Stafford Act. For instance, you go on 
campuses looking at various buildings, and instead of treating 
it as an entire campus and going build by building inquiring of 
the insurance on each building at a certain level, and at the 
end of the day, the result is that they suppress their 
responsibilities so much until they actually end up with little 
responsibility if any. You may end up to the point where you 
actually--they may argue you owe them money before it is all 
said and done.
    But they have actually taken the process and squeezing out 
of it every air of responsibility they can so they have less 
and less to do with helping us in the recovery as opposed to 
trying to find ways to do more and more to bring back what has 
been described as quite a devastated area. So I know in New 
Orleans they were telling me that going on a campus, they were 
taking each building one at a time, requiring project reports 
for each building, but worse than that, using deductibility 
standards for insurance requirements for each building on the 
campus as opposed to the entire campus, therefore, reducing 
their responsibility.
    And I would like to know about that. I haven't seen 
anything the Stafford Act that requires it, and I think this 
committee ought to take up that whole set of issues.
    And on a strictly--if they are going to stay the law, then 
let us do this or the other, make sure they are talking about 
what the law really doesn't let them do as opposed to think 
that they are imagining. Just to say what they think--they are 
acting like insurance company is trying to save the company 
money. That is not what they ought to be doing here. They ought 
to be trying to comply with the law and give us the help we 
need to get the recovery done.
    I will just--and the last thing is about the--and, Father 
Maestri, you can perhaps talk to this, about the mental health 
status of our student and our parents. We don't hear a whole 
lot about--I was mentioning it this morning, but this has got 
to be a crucial area. Students who are disconnected, parents 
who are removed from areas and lost, not only lost houses, but 
lost jobs and all those sorts of issues, and whether there is 
enough in the pipeline to help with that sort of--those types 
of questions.
    I will leave it there and see if I can get a response from 
Dr. Cowen, Dr. Hughes, and then from the public education 
people, and then Father Maestri.
    Thank you very much.
    Mr. Cowen. Mr. Jefferson, I will respond to the question 
about incentives for student and faculty, because you know that 
is probably our most immediate challenge right now besides the 
cash know. How do we retain and attract students to New 
Orleans? How do we retain and attract faculty to New Orleans?
    I think any kind of programs that we could get--grant 
programs, loan programs--that creates an incentive for those 
individuals to stay or to come would be extraordinarily 
helpful, because right now, our students have lots of options 
all over America. And anything we could do to provide those 
incentives through, as I said financial means, would be 
extraordinarily helpful.
    The same thing with our faculty. The faculty is very key to 
our community, because they really are an important hub of 
intellectual capital. If we lose our faculty for any of our 
institutions, it is going to be extraordinarily difficult to 
replace them. And they are having a difficult time right now if 
the researchers getting replacements for the lab equipment, 
their research assets. So once again, availability of loan 
programs or grant programs would be immensely helpful.
    Ms. Hughes. Mr. Jefferson, I would opt for grant programs 
based on one experience that we had in January. In January, we 
were fortunate to have a donor who indicated that he wanted to 
demonstrate that he could bring students back to Dillard 
University with the right incentives. And so we started at a 
level of $5,200 per student for scholarship, then moved down to 
$2,000. That only took care of 200 students. But believe me, 
when the numbers started showing up differently, and we had put 
that information on the Web, the incentive was really there. 
And I am convinced that that is why we were able to bring back 
more students.
    Our students are very loan heavy, of course, because so 
many of them are on financial aid. And as a matter of fact, 
about 95 or 97 percent are first-time students in college. So 
for us, grants would be really, really important.
    With faculty, because of the kind of faculty we have 
recruited, and because they have been so carefully selected 
with their specialties, they are now being attracted out, 
because we have no incentive match funds. And so it is really 
important to me that I am able to, first of all, retain the 
good faculty that we have, because it is so expensive to 
recruit them, but also to reattract other faculty with 
competitive salaries. So those are very, very important.
    In addition, housing. We need--even temporary housing would 
be wonderful, because, as you know, in Gentille, we don't have 
residential capacities yet.
    Ms. Voitier. From our perspective, in terms of keeping our 
faculties--I know it was basically a higher ed question, but K 
through 12, it is very real as well. Some of our best teachers 
have left our parish and are in the surrounding areas.
    There has got to be a way for us to be able to offer 
incentives for at least to come back. But to come back means 
living in a FEMA trailer or a little travel trailer for a while 
unless we can give them additional compensation for that long 
drive back and forth. And we are trying to look at some of the 
restart money to see if that is an allowable use which we feel 
it is, but we are working through the details of that with our 
State Department of Ed from audit purposes in terms of paying 
additional monies as incentives to come back.
    The mental health component that you mentioned is extremely 
critical. Earlier, I talked about a partnership we have with 
LSU working with Dr. Howard Osofsky, who is the head of the 
psychiatric department for LSU, who is assisting us with a 
great many members of his staff in working with our children 
along with our own counselors and social workers.
    And we feel that that is going to have to be a fairly long-
term relationship until these kids feel a sense of normalcy and 
a sense of safety, that they need a way to work through those 
feelings. They are going home each night to these trailers and 
listening to their parents talk about all the problems that 
they are having.
    And there have been some issues in our community, family 
problems. Our suicide rate is up, to be perfectly honest. And 
the personal issues and problems they are experiencing are 
obviously spilling over to their children, and we are seeing 
that in our schools as well.
    As far as FEMA, you are absolutely right. The amount of 
money in resources that are being spent in the assessment of 
our physical facilities as they do it on a building-by-building 
basis. You know, you talk about--and I have heard so many 
people talk about the hundreds of millions and billions of 
dollars that Congress is appropriating for this disaster. But I 
see very little of it actually getting down to the people who 
are suffering.
    What is happening, it is being tied up in this mid-level 
bureaucracy as it goes through layer after layer of contractors 
and subcontractors. And the people who are hurting, the people 
who are in pain are not receiving those funds. And if anything 
comes out of this, I would hope that you take a very hard look 
at where that money is going and who is benefiting from those 
funds, because the people day in and day out who have to live 
through this are seeing very little of these monies.
    One of the questions I continually ask of our FEMA 
representatives: Is that statute or is that policy? If it is in 
statute, well, then, we have got a long road to get that 
changed. If it is a policy, then let us talk to the people who 
can change those policies. But you would be amazed that we 
can't get a straight answer, because the people on the ground, 
the ones that we are having direct contact with in many cases 
have been trained over a 2-week period, given a manual, and 
said, go out and do this.
    So you cannot get--you get different answers each day, and 
depending on who you talk with. So there has got to be better 
and better consistency of the FEMA representatives on the 
ground.
    Father Maestri. Representative Jefferson, the Archdiocese 
of New Orleans has developed a comprehensive pilot program to 
deal with, not only children, but also their families. And the 
program is called the Fleur de Lis Program. And it is done in 
association with Catholic Charities and also psychiatric mental 
health and family therapists at the University of North 
Carolina, and also other resources from around the country.
    I believe that Dr. Rigamer, a well-respected psychiatrist 
and family therapist is the medical ground worker for this 
particular program, because we know that lousing economics and 
education are only part it. Children do not check trauma at the 
door. It is not something they take on and off like a coat, 
pick it up and go home. It is something that they live with. 
And very often, they are looking to adults who themselves are 
traumatized. And so this program, this 14-week program is for 
our principals, administrators and teachers, but it is not only 
directed to children and parents, it is also directed to school 
personnel themselves.
    Many of our teachers have lost homes, have lost loved ones, 
have lost cars and a whole way of life that they no longer 
have. And so they are expected to not only teach, help process, 
but themselves help deal with this particular trauma. So this 
particular program, we believe, is very, very important.
    Mr. Jefferson. Father Maestri, this is all being done 
through privately raised funds now?
    Father Maestri. That is correct.
    And, you know, it was interesting that, you know, we hear 
so much about, you know, the hoops of bureaucracy. Well, we 
find ourselves through the hoops of bureaucracy, but we also 
find ourselves, to a large extent, having to do a lot of this 
buy ourselves in the sense that I think that there needs to be 
a greater inclusiveness in the sense that the waters and wind 
did not discriminate between public and private.
    And so while we want to do all of those things necessary to 
meet regulations, et cetera, we think that there is a real 
opportunity for greater inclusiveness of private entities 
within this helping situation.
    Mr. Jefferson. I want to say just one last thing. We often 
hear a lot from Members of the Congress about how we aren't 
doing enough back home to help ourselves. And I think we have 
seen from this panel today that the people have taken a great 
deal of initiative throughout this whole process to do things 
for ourselves that the government isn't filling the gap for.
    I hope that the members are taking note of that.
    Mr. Payne. Would you yield for a moment?
    Mr. Jefferson. I don't have any time at all. I will yield 
what time I don't have.
    Mr. Payne. All right. I just want to say that I think that 
this incentive is really something. We have done it in the 
history of our country. When we wanted people out West, we had 
the Homestead Act. And we just had a round and put a stake in 
the ground. You got the land, and you just had to stay there. 
We have had the Tennessee Valley authority when there was 
nothing happening in that area. We had universal access for 
telephones. They were subsidized by short lines up in the 
northeast so that people in rural areas could get it for the 
same cost.
    We have seen the E-Rate that we use for our poor schools 
where it is subsidized by the rate. We have seen rural doctors 
have loan forgiveness if doctors are going to rural areas. 
There are all kinds of examples of the thing that Congressman 
Jefferson mentioned, and I think we simply have to get creative 
and just look at what has happened in the past. It is not even 
new. It is just tweaking a bit.
    Thank you. Thank you for yielding to me, sir.
    Mr. Boustany. Well, I just want to say--first of all, I 
commend each of you for your dedication, your leadership, your 
creativity and your professionalism and yow you have handled 
yourselves through a really devastating period of time.
    I also want to thank you for a very thorough testimony and 
forthright answers to the questions. You have been very 
thorough in answering all the questions, and I think most of 
the questions that this committee has. Let me just say that, 
you know, in the immediate days following both storms, this 
committee working closely with myself and Mr. Jindal, did 
everything we could to try to get aid down to the school 
systems as expeditiously as possible.
    We tried to assess the damage as quickly as possible, get 
information, move it through the committee. And I was very 
proud of the committee and how we handled things and worked 
through trying to provide financial assistance to higher ed and 
K through 12. Yet things remain very much mired in bureaucracy, 
as was so beautifully pointed out by Ms. Voitier in her final 
statement there.
    And I have recognized--I was on the ground last week in 
Louisiana. I went and stopped in Johnson's Bayou, and it was 
very distressing, first of all, to see the state of the school, 
and also to find out that not a single penny of Federal aid had 
reached the school system. That is a problem.
    It is also a problem when I pick up the ``Baton Rouge 
Morning Advocate'' and read a headline that says, ``East Baton 
Rouge Schools Await Hurricane Funds.'' And now, we are 8 months 
out beyond the storm, and so much of this aid has been locked 
up at the state level.
    So I would say to you that I am proud that Congress was 
able to go through the appropriations process and appropriate 
money, but yet our job is not done because we need to provide 
the oversight to see that the money is actually getting into 
the hands of those who need it.
    So with that having been said, I am not going to ask any 
questions. You have been very, very thorough both in testimony 
and in your answers. So again, I am going to just close out by 
saying thank you very much for what you have done. I am very 
proud to be associated with each of you and the work you have 
done, and so again, I thank you on behalf of the committee.
    Before I close out, though, I just want to also submit a 
letter for the record that I received from the American Library 
Association. And I want to acknowledge the devastation that 
libraries also suffered in addition to the schools as a result 
of both these storms.
    And I think it is important to emphasize the role that 
libraries play in education, and I commend the American Library 
Association for convening their annual meeting in New Orleans 
this summer, and I look forward to welcoming their 20,000-plus 
attendees to Louisiana. It is certainly going to be good for 
our community.
    So again, on behalf of the committee, I thank you very much 
for coming here and testifying and providing some very 
important answers to questions that we have had.
    And with that, we will adjourn this committee hearing.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
    [Additional materials submitted for the record:]

  Prepared Statement of the American Occupational Therapy Association

    The American Occupational Therapy Association (AOTA) submits this 
statement for the record of the April 26, 2006 hearing. We appreciate 
the opportunity to provide this information regarding the involvement 
of occupational therapy in Gulf Coast recovery efforts, particularly in 
education. It is critical for Congress to be aware of issues regarding 
America's public health and education needs so that it can develop 
appropriate national policies to meet society's needs. This topic is 
critical to the development of a clearer understanding of how states 
and local school districts in Hurricane-affected areas have responded 
to the challenge of meeting children's learning needs.
    The American Occupational Therapy Association represents more than 
35,000 occupational therapists, occupational therapy assistants, and 
students of occupational therapy. AOTA members work with children and 
adults whose lives have been affected or could be affected by injury, 
disease, disability, or other health risk. Clients who benefit from 
occupational therapy include infants and children, working age adults, 
and older persons who are dealing with conditions affecting their 
ability to engage in everyday activities or ``occupations.''
Why Occupational Therapists Are Concerned About Gulf Coast Recovery 
        Efforts
    Hurricane Katrina and the subsequent flooding caused by the failure 
of the New Orleans levee system resulted in one of the largest natural 
disasters to hit the U.S. Occupational therapy practitioners and 
students were among the multitude of people forced to leave their homes 
and communities and move to a different city or state. AOTA members, 
schools and universities, and communities across the country opened 
their doors to those displaced by the storm. AOTA quickly mobilized in 
support of relief efforts, including the establishment of a section on 
the AOTA website (http://www.aota.org/nonmembers/area1/links/
link06a.asp) that provided information and resources to help members 
cope with disaster and to identify ways to help. The occupational 
therapy community also provided crisis intervention, donated clothing, 
supplies, and money, helped with the clean-up, and helping children and 
families integrate into new schools and new communities.
    More than one-third of AOTA members work with children in schools, 
preschools, and early intervention settings. They provide critical 
services for children to improve their ability to perform daily 
activities or occupations necessary to function more effectively at 
home, school, or in the community. Of the estimated 370,000 students 
who were displaced from their home schools in Louisiana and 
Mississippi, approximately 10-12 percent have disabilities and had been 
receiving special education and related services, such as occupational 
therapy, under the Individuals with Disabilities Education Act (IDEA) 
prior to the hurricane. In the aftermath of the storm, occupational 
therapists are on the front lines helping schools develop appropriate 
programming for displaced students, especially those with disabilities.
How Occupational Therapy Helps in Disaster Recovery
    The goal of occupational therapy is to facilitate engagement in 
occupation in order to support participation in valued life roles and 
activities and to enhance the quality of life. In disaster situations, 
occupational therapists focus on adaptive disaster recovery and 
resumption of valued life roles and activities, by identifying 
disruptions in clients' previously adaptive occupational performance 
patterns and help clients develop new effective patterns of 
performance.
    In working with individuals and communities affected by disasters, 
occupational therapy practitioners bring a set of core skills founded 
on the importance of occupational engagement. Working together with the 
client, occupational therapy practitioners plan and implement 
interventions that enable people to reestablish balance in daily life 
in activities of daily living, work, leisure, and social participation 
by
    <bullet> analyzing activities to determine the underlying 
requisites for effective performance,
    <bullet> evaluating functional abilities in relation to specific 
activities, tasks, and occupations, and
    <bullet> configuring physical and psychological environments to 
maximize function and social integration.
    Occupational therapy is based on the premise that engagement in 
occupations facilitates adaptation. Occupation can help disaster 
survivors reestablish their lost sense of control. Focused, 
constructive activity, such as helping others, moves people beyond 
shock and denial. This strategy is especially effective for survivors 
whose lives have been disrupted. By focusing on occupations that help 
such people take charge of their life, occupational therapy 
practitioners can help them regain their sense of mastery and overcome 
any sense of guilt from a perceived failure to prepare for the disaster 
or to protect their family. By engaging in play, vigorous physical 
activity, or valued leisure occupations, survivors can get a brief 
respite from recurring thoughts, worries, and concerns about the 
future.
    This use of occupation is illustrated by the C'est La Vie Tile 
Project of the ``OT Gulf Support'' team. Occupational therapy 
practitioners and students developed a therapeutic mirror collage 
activity for homeowners in Louisiana. Using pieces from their broken 
china, therapists helped make framed mirrors for the homeowners. The 
frame around each mirror contained pieces of the broken china. The 
homeowners recognized the importance of the activity as a bridge for 
moving from the past into the future, in a way that also provides a 
connection to possessions that were important in the family's life.
    Both for short-term, ``normal'' stress reactions and those that 
persist over time, occupational therapists can provide supportive, 
informative, and educational counseling, as well as crisis intervention 
to help survivors deal with the consequences of their experience. While 
occupational therapists use counseling skills every day in practice, 
occupational therapy is a three-way relationship consisting of the 
client, the therapist, and the activity. Without the use of activity, 
occupational therapy does not occur. This differentiates occupational 
therapy from other mental health approaches.
    Occupation and activity can help clients cope with traumatic stress 
and meet survival needs. Occupational engagement provides diversion 
from stressful events and helps reestablish a sense of mastery in a 
situation in which a person feels a loss of control. Participation in 
occupation facilitates restoration of adaptive habits, supports a 
person's sense of identity, and helps establish a spiritual connection 
in the disaster situation.
    As part of the intervention team, occupational therapists can help 
clients develop coping skills to deal with the aftereffects of their 
experience. Additionally, through engagement in occupation, disaster 
survivors can restructure their habits and routines to cope more 
effectively with stress and anxiety, to enhance their sense of mastery 
over their environment, and to participate in their valued life roles.
How Occupational Therapy Helps Address Children's Mental Health Needs
    Recent reports have indicated that mental health problems are 
prominent for both children and adults following the hurricane. In one 
study, nearly half of the parents surveyed reported that their child 
showed new emotional or behavioral problems which emerged after the 
hurricane. Children, whose mothers scored at a level consistent with a 
psychiatric diagnosis on a standard mental health screening instrument, 
were two and a half times more likely to have emotional and behavioral 
problems since the hurricane.
    In addition, frequent relocation of families has made it difficult 
for some children to develop or sustain new relationships in school and 
have undermined the family's ability to establish a predicable routine 
to help their children cope better. It is clear that the need for 
health and mental health professionals is significant.
    With its roots in mental health, occupational therapy is concerned 
about an individual's ability to perform everyday occupations, so that 
they can participate in school, at home, at work, and in the community. 
Occupational therapists and occupational therapy assistants provide 
critical services to and for children and youth in a variety of early 
childhood, educational and community settings who have a variety of 
learning, educational, and behavioral needs, including children with 
mental health need and those at risk for suicide. Occupational therapy 
practitioners help children and youth bridge the gap between their 
capacity to learn and full, successful participation in education, 
work, play, and leisure activities.
    Occupational therapists look at the individual's strengths and 
needs with respect to daily life performance in school, home and 
community life. Focus is placed on the relationship between the client 
and their performance abilities, the demands of the activity, and the 
physical and social contexts within which the activity is performed. In 
addition, each individual's occupational performance is viewed through 
a psychological-social-emotional lens. This perspective helps the 
occupational therapist to understand what is important and meaningful 
to the child as well as how their past roles, experiences, strengths 
and patterns of coping work together to shed light on current issues 
and problems.
    Occupational therapy intervention for children and youth emphasizes 
functional and readiness skills and behaviors, and includes 
consultation with parents and families, teachers and other 
professionals. Services are directed toward achieving desired outcomes 
that were developed in collaboration with the family and other 
professionals.
    In early childhood and education-settings, occupational therapists 
identify the underlying performance skills, including motor, process, 
communication and interaction skills that impede the child's ability to 
participate in learning and school-related activities. Intervention 
strategies and service models are designed to support desired 
developmental and educational outcomes, and may be provided 
individually or in small groups. The therapist also works with teachers 
and the child's family to determine how to modify home or classroom 
routines, schedules and environments to provide structured learning 
opportunities and experiences to support the child's emerging skills.
Why Occupational Therapy?
    Occupational therapy for children/youth with mental health problems 
uses activity-based interventions that serve as the vehicle for 
enhanced self-understanding, provide a reality-based structure, and 
supports skill acquisition or enhancement. Services focus on mobilizing 
both internal and external resources that support the child's self-
understanding within the context of a safe, caring relationship. 
Intervention strategies address interpersonal communication and other 
social behaviors. Strategies include helping the child learn to manage 
and organize their behavior and classroom work space and environment, 
and to complete assigned tasks or chores. Intervention may also address 
underlying sensory-motor concerns that affect the child's active 
participation in home and school activities.
    Occupational therapy is an underutilized service that can meet and 
address the mental health needs of children and youth in schools and 
the community. Services for school-aged children are intended to help 
them succeed in school. Intervention strategies may focus on improving 
the child's information-processing ability, academic skill development, 
and ability to function in the school environment. For adolescents, 
occupational therapy focuses on preparation for work life choices, 
improvement of social and work skills, and learning how to create or 
adapt the environment to maximize productivity.
    Many children and youth who could benefit from occupational therapy 
do not receive services, particularly those with mental health needs. 
This limited access affects young children and students receiving 
special education under the IDEA as well as students in general 
education. Often this limitation is due to a lack of understanding 
about how occupational therapy can help or because of perceptions that 
therapists only address 'motor'' issues. Occupational therapy training 
is comprehensive and covers physical, psychological, social and 
pedagogical aspects of human occupation. Occupational therapy's 
understanding of human performance, or ``do-ing,'' can be invaluable in 
helping parents and other professional staff to understand the 
relationship between the physical and psychosocial and how these 
factors support or impede children's progress.
What is Occupational Therapy?
    Occupational therapy is a vital health care service, designed to 
help individuals participate in important every day occupations. 
Occupational therapy services address underlying performance skills, 
including motor, process, communication and interaction skills to 
assist in the correction and prevention of conditions that limit an 
individual from fully participating in life. For children with 
developmental, learning and other educational needs, occupational 
therapy can help them to develop needed skills within the context of 
important learning experiences and to perform necessary daily 
activities such as feeding or dressing themselves and help them get 
along with their peers at school. Occupational therapy services can 
help identify strategies for teachers and families to use to facilitate 
appropriate reading and writing development.
    Occupational therapy practitioners have the unique training to 
assist individuals to engage in daily life activities throughout the 
lifespan and across home, school, work and play environments. Services 
may be provided during only one period of the child's life or at 
several different points when the child is having difficulties engaging 
in his or her daily life or school occupations, such as when they are 
faced with more complex demands in the classroom resulting from 
increased emphasis and reliance on written output. Occupational therapy 
services may be provided in the family's home, at school, and in the 
community, including day care and preschool programs, private clinics, 
and vocational programs.
    Occupational therapy is a health and rehabilitation service covered 
by private health insurance, Medicare, Medicaid, workers' compensation, 
vocational programs, behavioral health programs, early intervention 
programs, and education programs. We thank you once again for the 
opportunity to submit our comments for the record.
    Hurricane Katrina revealed longstanding problems that continue to 
afflict many of our nation's cities and states, especially their 
poorest communities. As the recovery and rebuilding from Katrina 
progresses, Congress has the opportunity to address underlying problems 
that pre-dated the hurricane and undermine the health and well-being of 
the nation's children. AOTA is ready to work with Congress to help meet 
this need.
References
American Occupational Therapy Association (2005). The role of 
        occupational therapy in disaster preparedness, response, and 
        recovery: a concept paper. American Journal of Occupational 
        Therapy, 59.
American Occupational Therapy Association (2002). The occupational 
        therapy framework: Domain and process. American Journal of 
        Occupational Therapy, 56, 609-639.
Government Accountability Office (May, 2006). Hurricane Katrina: Status 
        of the health care system in New Orleans and difficult 
        decisions related to efforts to rebuild it approximately 6 
        months after hurricane Katrina (GAO-06-576R), http://
        www.gao.gov/new.items/d06576r.pdf.
Jean Polichino, MS, OTR, personal communication May, 2006.
National Center for Disaster Response (April, 2006). Responding to an 
        emerging humanitarian crisis in Louisiana and Mississippi: 
        Urgent need for a health care ``Marshall Plan,'' http://
        www.ncdp.mailman.columbia.edu/files/marshall--plan.pdf.
Occupational Therapy Gulf Support (April, 2006). Presentation at AOTA's 
        86th Annual Conference and Expo, Charlotte, N.C.
                                 ______
                                 
    [Additional material supplied by Dr. Cowen follows:]

Rebuilding and Transforming: A Plan for Public Education in New Orleans

A School System in Crisis
    Prior to Katrina, the Orleans Parish public school system--with 
over 60,000 students--was the 49th largest school district in the 
United States. It ranked among the lowest performing of all large, 
urban school districts and was facing significant financial problems. 
Hurricane Katrina caused enormous physical devastation to schools that 
were already in poor condition. Even more damaging was interruption to 
thousands of children's education and the scattering of New Orleans 
families, teachers and principals.
Transforming Crisis into Opportunity
    In the wake of Hurricane Katrina, Orleans Parish has the 
opportunity to build a new school system to meet the needs and 
interests of all its students. Now more than ever before, New 
Orleanians are united in their determination to work toward providing 
first-rate schools for all children. Mayor Ray Nagin appointed the 
Bring New Orleans Back Education Committee to develop a long term plan 
for re-building the public education system that would be bold, 
courageous and transformative.
A New Vision for Public Education in New Orleans
    We can and must set ambitious goals and become a model for large 
urban school districts throughout the country. As a starting point, the 
Education Committee developed the following long-term vision for public 
education in New Orleans: deliver learning and achievement for all 
students, regardless of race, socioeconomic class or where they live in 
New Orleans with the goal of graduating all students ready for college 
and the workplace.
A Rigorous, Transparent and Inclusive Process
    To craft this transformational plan for New Orleans Public Schools, 
we committed to a fact-based process that would enable all members of 
the community to participate and stay informed. The Education Committee 
reviewed the results of a diagnosis of the financial condition, 
physical condition and academic performance of New Orleans' schools 
both before Katrina and currently. The Committee heard from more than 
1,500 New Orleanians, including principals, teachers, parents, and 
students presently scattered across the U.S., about their needs and 
hopes for the schools. In addition, the committee reviewed best 
practices from around the country and the world. We brought together 
leaders who have successfully reformed educational systems, and heard 
from the best researchers and thinkers on education. Taken together, 
the current situation, the desires of New Orleanians, and the best 
practices led to the development of the key design principles and in 
turn to the model laid out in this report.
A Bold New Education System
    The synthesis of the research, outreach and feedback led to a set 
of key design principles that guided the development of the final plan. 
These principles include, among others, superior standards, 
accountability, and top talent at every level. Building on these core 
principles, the Education Committee is proposing a bold new public 
education system, the Educational Network Model.
    The Educational Network Model we propose is a new vision designed 
with the sole mission of enabling and ensuring achievement for all 
students. The model empowers schools and holds stakeholders accountable 
for student achievement, from the board to teachers. In the model, 
there are small networks of charter, contract, and system-run schools. 
The system center is lean and strategic in the way it designs and 
manages school networks. The system center sets district-wide strategy 
and provides support systems for the schools.
    The Educational Network Model is supported by four organizational 
cornerstones: school networks, top talent at all levels, a lean 
district office, and aligned governance. The following diagram 
illustrates the full Educational Network Model.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The structure of the Educational Network model is markedly 
different from a traditional school system. It is based on empowerment, 
flexibility, and accountability. The organizational diagram found below 
details how the new model would be structured. Rather than having all 
schools report to a single central district, this system is made up of 
a set of educational networks. Each educational network will eventually 
consist of a group of 8-15 schools. The schools in each network will 
have similar characteristics, so that they can benefit from sharing 
each others' experience and resources.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Key Recommendations
    In order to achieve the goals of the new Educational Network Model, 
there are a number of key actions that the committee recommends. Each 
recommendation is associated with one of the four foundational 
principles of the model.
    Deliver learning and achievement for all students, regardless of 
race, socioeconomic class or where they live in New Orleans with the 
goal of graduating all students ready for college and the workplace
    1. Design and implement a universal early education program based 
on best practices for early childhood
    2. Define explicit, detailed and rigorous instructional standards 
by grade and subject that are aligned with student achievement and 
college/workforce readiness objectives
    3. Support schools to best meet the needs of their students who 
have exceptional needs, including special education
    4. Ensure safe school environments through effective discipline 
policies and safe, secure facilities
    5. Provide before and after school programs to enrich student 
learning
    6. Ensure that schools are equipped to address student's emotional 
and psychological well being, especially with respect to trauma 
resulting from Hurricane Katrina
    7. Design school facilities to support student achievement
    8. Ensure teacher to student ratios are consistent with the 
learning needs of students and best practice
    9. Provide all students with the ability to choose a school that 
best meets their needs
    10. Create a fair, rules-based system for placing students in their 
school of choice
    11. Allocate resources to schools using an equitable funding model 
where dollars follow students with appropriate weighted adjustments 
based on the educational needs of the student population at each school
    Develop a new school-focused philosophy that empowers schools as 
the centerpiece for transformation and holds them accountable for 
student performance
    12. Empower schools by shifting primary budgetary control and 
decision-making authority to the principals. Train principals to handle 
this new authority and hold them accountable for delivering school 
results.
    13. Give principals the authority to select and retain the staff 
that best supports the vision for their school.
    14. Hold networks, schools and teachers accountable for student 
learning and achievement using transparent, multiple data-driven 
measurement and assessment systems
    15. Align assessment systems with Louisiana and national norms, as 
well as college admission standards
    16. Design a comprehensive scorecard to assess school and network 
performance and make scorecard results publicly available
    17. Align compensation with performance at all levels
    Create a new Educational Network Model, with that provides 
flexibility, options and accountability in order to drive student 
learning and achievement.
    18. Design and build multiple networks of schools, grouping 
``like'' schools together to facilitate coordination and best practice 
sharing. There are multiple 'themes' to organize networks around, e.g., 
neighborhoods and type of schools. In addition, there are multiple ways 
to manage networks, e.g., chartered, contract managed and district-run.
    19. Hire and retain a world-class superintendent
    20. Attract, develop and retain the best leadership team, network 
managers and principals
    21. Create a Skill Building / Professional Development organization 
that is tightly aligned with student needs and school achievement 
goals.
    22. Form a small leadership group at the district level focused on 
a core set of strategic and coordinating functions (e.g. academic 
standards, data analysis).
    23. Create a Shared Services Organization that delivers high 
quality and efficient service options and treats schools as customers.
    24. Create a single, aligned and highly effective governing board 
with the stability and collective skill set to ensure transformation 
occurs.
    25. Focus efforts of governing board on driving transformation and 
ensuring accountability, not on operating schools.
    26. Create a national advisory board, comprised of educational 
transformation leaders, to serve as trusted advisors over next 5 to 10 
years
    Develop new partnerships to engage parents and the community to 
support student learning
    27. Empower schools with authority and resources to design 
partnering strategies that best meet their students needs
    28. Provide support to schools' partnering efforts through network 
managers
    29. Assign clear roles and responsibilities to parents, e.g., 
parents required to pledge involvement in their children's education
    30. Develop innovative outreach approaches to communicate with and 
engage parents
    31. Partner with organizations to offer family literacy and other 
programs that empower parents to better help their children
    32. Encourage co-location of community facilities with schools 
(e.g., libraries, recreation facilities, health and social services)
    33. Partner with key community groups to offer programs that will 
support student needs and enrich their learning, e.g. social service 
organizations, post secondary education institutions, faith-based, and 
arts and cultural organizations
Looking Forward
    Any effective education plan must also account for the current 
reality in New Orleans. The number of students and teachers returning 
to the school system in the near term will be limited. The school 
district faces significant debt and there are multiple systems of 
governance to deal with. To be successful, any education plan must be 
flexible yet robust enough to meet these unique challenges. For 
instance, uncertainty about the size of the returning student 
population may mean that it would not be economically viable to 
establish a large central office running a traditional school system. 
On the other hand, uncertainty about the number of available teachers 
calls into question the efficacy of an all-charter model. Present 
circumstances reinforce the appropriateness of the educational network 
model to respond most effectively to the current situation.
    This plan represents a material departure from the way New Orleans' 
school system has functioned in the past. Adopting this plan will take 
significant courage, resolve, and a great deal of hard work on the part 
of our community and our leaders. But we are convinced that it holds 
the best and brightest hope for our children. Implementation of the 
Educational Network model will fundamentally transform the look and 
feel of New Orleans Public Schools.
                                 ______
                                 
    [Internet URL to Communities In Schools' March 2006 
Publication, ``Inside CIS'' follows:]

    http://www.cisnet.org/library/download.asp?file=insideCIS--2006--
03.pdf

                                 <all>

</pre></body></html>
